<html>
<title> - CHALLENGES AND OPPORTUNITIES FOR HUMAN SPACE EXPLORATION</title>
<body><pre>[Senate Hearing 113-624]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-624

                     CHALLENGES AND OPPORTUNITIES 
                      FOR HUMAN SPACE EXPLORATION

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-152 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK WARNER, Virginia                TIM SCOTT, South Carolina
MARK BEGICH, AlaskaS                 TED CRUZ, Texas
RICHARD BLUMENTHAL, Connecticut      DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii                 RON JOHNSON, Wisconsin
WILLIAM COWAN, Massachusetts
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       TED CRUZ, Texas, Ranking Member
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      RON JOHNSON, Wisconsin
WILLIAM COWAN, Massachusetts
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 23, 2013...................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Cruz........................................     3
Statement of Senator Blumenthal..................................    33

                               Witnesses

William H. Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations, National Aeronautics and Space 
  Administration.................................................     4
    Prepared statement...........................................     5
Thomas P. Stafford, Lieutenant General, United States Air Force 
  (Ret.); Astronaut (Ret.).......................................     9
    Prepared statement...........................................    10
Stephen A. Cook, Director, Space Technologies, Dynetics, Inc.....    12
    Prepared statement...........................................    14

                                Appendix

Response to written questions submitted by Hon. Amy Klobuchar to 
  William H. Gerstenmaier........................................    37

 
                     CHALLENGES AND OPPORTUNITIES 
                      FOR HUMAN SPACE EXPLORATION

                              ----------                              


                        TUESDAY, APRIL 23, 2013

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:38 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good afternoon. Welcome to the second 
hearing of this subcommittee in the 113th Congress. Today, we 
are going to focus on the challenges and the opportunities for 
human space exploration beyond low-Earth orbit.
    Human space exploration, we want to get back in that 
business. It is vital to our space program. It is vital to the 
science community. It pushes America's best and brightest to 
the limits of their creativity, and all of us on Earth benefit 
from it. The allure of exploration keeps our students in 
science, technology, engineering, and mathematics. Just look 
what the Apollo program did, creating a whole generation of 
young scientists and engineers and mathematicians. And, of 
course, it helps our country in our leadership in aerospace 
basic research and other high-technology areas.
    In the authorization bill from two and a half years ago, we 
required NASA, ``to expand permanent human presence beyond low-
Earth orbit,'' calling on the agency to explore beyond LEO for 
the first time since the 1972 Apollo 17 mission, beyond low-
Earth orbit.
    Under the guidance of that authorization bill, NASA has 
been working with the Nation's space industry to sustain a 
human presence on board the International Space Station. It is 
designated as a national laboratory, one component of it. And 
with NASA's guidance, one U.S. commercial company has already 
delivered cargo to the station. And just this past Sunday, 
another commercial company successfully tested its new rocket, 
and that rocket will deliver cargo to the station later on. 
Efforts to enable commercial crew delivery capabilities are 
also well under way, and we look forward to those successes.
    And so NASA sits at the nexus of the public and private 
space sectors, and these partnerships enhance what we can 
accomplish in space.
    For exploration beyond low-Earth orbit, LEO, NASA is 
currently building and testing hardware for the new Space 
Launch System and the Orion crew capsule. These technologies 
will carry our astronauts further into space than ever before.
    In 2014, a test of Orion will fly the capsule 15 times 
higher than the ISS before returning it to Earth at speeds near 
those that General Stafford, who is one of our participants 
today, reached in his reentry in the Apollo 10 mission. And 
that Orion capsule is now undergoing final construction in the 
O&C building at the Kennedy Space Center. Its heat shield, the 
largest ever built, is on its way from Massachusetts.
    And following this test, the heavy-lift rocket and the 
capsule will fly together for the first time in 2017 and then 
carry its first crew in 2021.
    NASA is also preparing its people and infrastructure to 
support this space exploration. To ensure that future missions 
have adequate ground support, of course, what they are going 
through is the upgrades of all of the ground support equipment 
and launch infrastructure. And those will enable us in NASA, 
the military, and also the operations in the commercial space 
sector.
    So where do we go with these capabilities? Mars is the 
goal. With the right technology, SLS and Orion will be able to 
enable a wide range of human missions and destinations, which 
describe, going back to the authorization bill, include, ``the 
surface of the Moon and near-Earth asteroids.''
    Two weeks ago, NASA announced its plan to capture a small 
asteroid and redirect it to a stable orbit around the Moon. And 
the concept is still being studied, but if NASA can find a 
suitable asteroid and redirect it with a robotic mission in 
time, our astronauts could visit and study the asteroid during 
a 2021 SLS-Orion flight. And so we are going to hear about that 
today.
    Research is also under way to better prepare astronauts for 
the dangers of exploration beyond low-Earth orbit. The Johnson 
Space Center in Texas, the hometown of this subcommittee's 
Ranking Member, Senator Cruz, houses NASA's Human Research 
Program. Many who have traveled into space participate in an 
annual physical at the Johnson Space Center.
    NASA is going to continue to learn about the effects of 
microgravity on the body when an American and a Russian start 
their 1-year stay on board the International Space Station. We 
are learning a lot about the effects of zero-G and bone loss as 
a result of zero-G. We are going to learn at the Johnson Space 
Center all of the effects that we possibly can on radiation on 
the human body and how to protect us when we are going all the 
way to Mars, and what are the kinds of shields that we have to 
have in case there is a solar explosion on the way to those 
planets, or, in fact, if we are on a Moon base, what do we have 
to protect human life.
    So NASA's exploration efforts are strong, and they are well 
under way. And there are a lot of challenges, particularly in 
this fiscal climate that we find ourselves. But with the 
leadership that we have seen, with the creativity, with the 
dedicated contractor force and the civil service workforce, 
then we would have reason to believe that NASA can achieve the 
goals.
    And so I want to welcome our witnesses here. I want to 
thank them. This is going to be an exciting topic to discuss.
    Our first witness is NASA's Associate Administrator for 
Human Exploration and Operations, Bill Gerstenmaier. And he is 
going to give us an update on SLS and Orion and on the 
technology needed for this human exploration and on this ``gee 
whiz'' asteroid mission.
    Then, of course, we are very fortunate to have someone who 
is not a stranger to this subcommittee, and he is our Air 
Force, retired, Lieutenant General Tom Stafford. He went down 
and orbited the Moon on Apollo 10. And, of course, one of the 
great thaws in the Cold War occurred high above the Earth in 
1975 when a Soviet crew joined up with an American crew and 
they lived together in space for 9 days in the midst of the 
Cold War. General Stafford was the commander of that mission. 
And who better to discuss the value of international 
partnerships, especially in human space exploration, than the 
man who has been there and seen it since its inception? And, of 
course, in his position when he left the astronaut office, went 
back into the Air Force, he was the Deputy Chief of Staff for 
Research, Development, and Acquisition and was involved in the 
initiation of a stealth fighter. He wrote the initial 
specifications for the B-2 stealth bomber. He knows technology.
    And then we have Mr. Steve Cook, the Director of Space 
Technologies for Dynetics. He is going to address NASA's 
partnerships with industry, the roles of government and private 
sector together in human exploration, as well as the policy 
needs.
    And so, thank you all for being here.
    Senator Cruz?

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman, for calling this 
hearing today on the path of human space exploration.
    Thank you to each of our distinguished panel members for 
joining us this morning. I appreciate the opportunity to stand 
side-by-side on this vital national priority and the 
opportunity today to hear from this distinguished panel on your 
wisdom and insight and your years of experience on space 
policy, in particular addressing NASA's long-term mission and 
any challenges that are presented to that mission by the path 
we are on today.
    I also look forward to hearing further about how the 
commercial sector is making an important contribution to 
achieving these goals and how we can further expand that 
partnership, including perhaps learning lessons about how 
government can be more efficient and how our space program can 
continue to generate opportunities for commercialization that 
generates economic growth and jobs throughout the private 
sector.
    It is critical that the United States ensure its continued 
leadership in space. And that will require broad support from a 
range of stakeholders, from the general public to the U.S. 
Government to the scientific community. And I look forward to 
this opportunity to learn from each of our distinguished panel 
members here today.
    Thank you.
    Senator Nelson. And we want to welcome in the audience a 
number of people that are attending the suppliers' conference 
of the SLS-Orion suppliers.
    And so, let's start with you, Mr. Gerstenmaier. We will go 
right down the table. And then we will get into some questions 
after all of you have testified.
    Your formal remarks are inserted in the record, and if you 
would share with us verbally a shortened version.
    Thank you.

        STATEMENT OF WILLIAM H. GERSTENMAIER, ASSOCIATE

        ADMINISTRATOR, HUMAN EXPLORATION AND OPERATIONS,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Gerstenmaier. Thank you very much for asking me to 
represent the NASA team for this hearing on challenges and 
opportunities for human spaceflight.
    This is a very good time for human spaceflight. The 
International Space Station is making tremendous progress in 
space-based research. The ISS is beginning to show its 
potential as a world-class research facility. Many of the early 
findings have direct application for people on the Earth.
    Expedition 34's patch had the statement, ``Off the Earth, 
for the Earth.'' This statement captures well one of the 
reasons for ISS. There are several Earth science payloads 
scheduled to fly in the next year as a direct application of 
that expedition's statement.
    The recent results from the Alpha Magnetic Spectrometer are 
also providing unique data on the potential for dark matter in 
the universe. The Alpha Magnetic Spectrometer is also providing 
unique data on the cosmic background radiation environment of 
space. This data will be critical as we send humans beyond the 
protection of Earth's magnetic fields.
    Lastly, the Center for Advancement of Science in Space, 
CASIS, is beginning to find real interest in space-based 
research from a variety of new users. ISS is doing great 
things.
    Commercial cargo is proceeding well, with SpaceX having 
completed two cargo missions to the ISS. The next Space Station 
mission will carry an externally mounted optical communications 
package and an Earth-viewing high-definition camera also 
mounted on the outside of ISS.
    Orbital just completed a test flight of the Antares rocket 
from Wallops on Sunday. This was a tremendous accomplishment, 
both for the vehicle and the launch pad. Orbital will next fly 
a demonstration mission to the ISS in June or early July.
    U.S. companies are stepping up to the task of keeping the 
International Space Station resupplied. Commercial Crew is 
making tremendous progress in implementing the acquisition 
strategy and vehicle designs. The draft RFP for the 
certification and demonstration flight should be out in the 
next 2 months.
    All of these efforts complement the use of ISS in 
demonstrating the commercial value of space.
    The heavy-lift launch vehicle, SLS, and Orion are also 
making tremendous progress. The SLS design is maturing. Welding 
equipment is being assembled in New Orleans. And by the end of 
this year, all major weld schedules will be completed for the 
core stage. The goal is to begin manufacturing next year in New 
Orleans.
    The Orion capsule is in Florida being outfitted and tested 
for its test flight next year. The heat shield, as you said, 
was in Boston having thermal protection material installed. 
This test flight will provide critical entry performance data 
for the heat shield. It is really exciting to see a flight 
vehicle being assembled and outfitted in Florida again.
    Finally, work is beginning on the B-2 test stand at 
Stennis. This stand will test the core stage propulsion systems 
in late 2016 prior to shipping the core stage to KSC for flight 
in 2017.
    The work on the service module with the European Space 
Agency for Orion is continuing, with significant progress being 
made. It is clear that international cooperation will be part 
of any future exploration endeavor.
    NASA has announced a strategy that unites scientific 
observation, technology development, and human spaceflight 
activities into a unified approach. The first step in this 
strategy is an asteroid-retrieval mission with crew-aided 
sample return on Orion. The mission will use the work done in 
the Science Mission Directorate for asteroid detection, work 
done on solar electric propulsion by the Space Technology 
Mission Directorate, and work done on the Orion and SLS by the 
Human Exploration and Operations Mission Directorate. The 
experiences learned from this mission will provide a critical 
framework for human exploration beyond low-Earth orbit.
    This is an exciting time in human spaceflight. We have made 
tremendous progress in the last year, and we have solid plans 
for the future. I look forward to your questions. Thank you.
    [The prepared statement of Mr. Gerstenmaier follows:]

Prepared Statement of William H. Gerstenmaier, Associate Administrator, 
   Human Exploration and Operations, National Aeronautics and Space 
                             Administration
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss NASA's human 
spaceflight efforts. The Human Exploration and Operations (HEO) Mission 
Directorate encompasses NASA's human spaceflight activities in Low-
Earth Orbit (LEO), the development of exploration vehicles to take 
astronauts beyond LEO, research and technology development efforts to 
enable deep space exploration, and critical infrastructure and 
operational capabilities that ensure NASA's ability to conduct testing, 
launch science missions, and communicate with its spacecraft across the 
solar system. The Agency is developing spaceflight capabilities to send 
humans to an asteroid by 2025 and on to Mars in the 2030s. We are 
building the world's most powerful rocket, the Space Launch System 
(SLS), and a deep space exploration crew vehicle, the Orion Multi-
Purpose Crew Vehicle (MPCV). American astronauts are living and working 
in space on board the International Space Station (ISS), conducting an 
expanding research program with an array of partners. By partnering 
with American companies, we are resupplying the ISS and launching these 
missions from U.S. soil, and we are on track to send our astronauts to 
space from American shores in just the next few years.
The International Space Station: Frontier of Research and Technology 
        Development in LEO
    The ISS, with its international crew of six orbiting Earth every 90 
minutes, is an unparalleled asset for the conduct of research and 
technology development in a unique, microgravity environment. The ISS 
has transitioned from an era of assembly to one where our full focus is 
on operations and research to: (1) improve our ability to live and work 
in space, including enabling human exploration beyond LEO; (2) develop 
a demand-driven commercial transportation and research market in LEO; 
(3) enable science, engineering research, and technology development in 
the fields of Earth, space, life (biological and human research), and 
physical sciences; and (4) derive tangible benefits for folks on Earth. 
As of September 2012, 1,549 experiments had been conducted aboard ISS, 
involving more than 1,500 scientists from 68 countries, resulting in 
more than 588 scientific publications. The first results from the Alpha 
Magnetic Spectrometer (AMS) experiment on ISS were announced at CERN 
(the European Organization for Nuclear Research) on April 3, 2013. This 
cosmic ray particle physics detector will increase our knowledge of 
physics and astrophysics, and help address the mysteries of dark 
matter.
    The ISS is enabling advances in science and research that benefit 
humanity today and hold the promise for further advances and 
discoveries. For example, research onboard ISS has already assisted 
coastal disaster recovery efforts across the globe through Earth 
imaging sensors. Research is also contributing to understanding many 
ailments faced by the elderly, including bone loss (osteoporosis), 
immune system degradation, and loss of balance. The ISS is also 
conducting technology demonstrations and development efforts to advance 
human and robotic exploration beyond LEO and serving as the foundation 
for an international exploration partnership. We are grateful to 
Congress for extending NASA's exception under the Iran, North Korea, 
Syria Non-proliferation Act (INKSNA), which will allow the Agency and 
its international partners to continue to operate ISS through at least 
2020.
    Working closely with the ISS Program, HEO's Space Life and Physical 
Sciences Research and Applications (SLPSRA) Division advances our 
knowledge of biological and physical sciences, and the Human Research 
Program continues to develop biomedical science, technologies, 
countermeasures, diagnostics, and design tools to keep crews safe and 
productive on long-duration space missions. The progress in science and 
technology driven by this research is expected to have broad impacts on 
Earth as it advances our ability to support long-duration human 
exploration. SLPSRA also serves as NASA's liaison to the non-profit 
Center for the Advancement of Science in Space (CASIS), which is now 
managing the ISS National Laboratory for research being done on ISS by 
the academic and commercial organizations participating in the evolving 
utilization of LEO space for innovative new purposes.
    NASA's plans for the coming year on ISS include preparing for an 
extended duration, year-long human-crewed mission to explore human 
adaptation to space, continuing to utilize the ISS for technology 
demonstrations enabling future exploration, and the addition of three 
Earth Science instruments that will exploit ISS capabilities to study 
winds over the oceans and the movement of dust, smoke, and pollution 
through the atmosphere.
    The Space Technology team at the Johnson Space Center in Texas is 
working to increase capabilities for the Robonaut 2 demonstration on 
ISS and further the Agency's development of next-generation tele-
robotics systems. In addition, Space Technology is using the SPHERES 
satellites on ISS to demonstrate autonomous rendezvous and docking 
techniques and liquid slosh dynamics which serves to validate mission 
design for both spacecraft and launch vehicles.
    There are two U.S. companies supporting the ISS under Commercial 
Resupply Services (CRS) contracts. Space Exploration Technologies 
(SpaceX) was awarded 12 cargo flights to the ISS, and Orbital Sciences 
Corporation (Orbital) was awarded 8. SpaceX executed its first cargo 
mission to the ISS in October 2012 using the Falcon-9 rocket and the 
Dragon spacecraft, successfully delivering cargo and returning 
scientific samples to Earth. Recently, SpaceX successfully completed 
its second CRS mission. The Dragon spacecraft lifted off from Cape 
Canaveral Air Force Station in Florida on March 1, 2013, carrying about 
1,268 pounds (575 kilograms) of supplies and investigations. On March 
26, it returned about 2,668 pounds (1,210 kilograms) of science 
samples, equipment and education activities. Orbital's first contracted 
cargo resupply mission under CRS is slated for later this year. Orbital 
launched its Antares rocket this past Sunday from the new Mid-Atlantic 
Regional Spaceport Pad-0A at the Agency's Wallops Flight Facility in 
Virginia. The test flight was the first launch from the pad at Wallops 
and was the first flight of Antares, which delivered the equivalent 
mass of a spacecraft, a so-called mass simulated payload, into Earth's 
orbit.
Promoting the Development of American Commercial Crew and Cargo 
        Systems
    NASA's Commercial Spaceflight efforts support the development of 
safe, reliable, and affordable commercial systems to transport crew and 
cargo to and from the ISS and LEO. A top priority for NASA and the 
Nation is to affordably and safely launch American astronauts and their 
supplies from U.S. soil, ending our reliance on foreign providers and 
bringing that work back home.
    In the area of cargo transportation system development, SpaceX has 
successfully completed its Commercial Orbital Transportation Services 
(COTS) efforts, and only two activities remain for Orbital under the 
COTS program: launch vehicle test flight and ISS cargo mission 
demonstration. Orbital plans to conduct a demonstration flight of the 
Antares with the Cygnus spacecraft to the ISS this summer under the 
COTS effort, prior to commencing contracted cargo resupply flights to 
ISS, as noted above.
    The Commercial Crew Program (CCP) aims to facilitate the 
development of a U.S. commercial crew space transportation capability 
by 2017, and full funding of the FY 2014 request is essential to 
restore a human spaceflight capability to the United States in this 
timeframe. Reduced funding will delay the operational availability of 
domestic commercial services, extending the period during which NASA 
will be solely reliant on international partners to provide crew 
transportation and rescue services to the ISS. Since initiating this 
program in 2009, NASA has conducted two Commercial Crew Development 
(CCDev) competitions for industry to advance commercial crew space 
transportation system concepts and mature the design and development of 
elements of the system. In August of 2012, NASA announced new 
agreements with three American companies--Boeing, Sierra Nevada and 
SpaceX--to develop and demonstrate the next generation of U.S. human 
spaceflight capabilities under the Commercial Crew Integrated 
Capability (CCiCap) program. Between now and May 2014, NASA's partners 
will continue to perform tests and mature their integrated designs. 
Certification of these systems has begun in parallel under a separate 
Federal Acquisition Regulation-based contract known as the 
Certification Products Contract (CPC). NASA anticipates releasing a 
draft Request for Proposals (RFP) for phase two of this effort in July 
of this year, with the final RFP to follow in October 2013. Once 
commercial crew transportation systems are certified by NASA, the 
Agency plans to procure transportation services from commercial 
entities for NASA-sponsored personnel to and from the ISS.
Preparing to Send Astronauts Beyond LEO into Deep Space
    Because our commercial space partners continue to make rapid and 
cost-effective progress toward meeting the Agency's requirements for 
access to the ISS and to LEO, NASA is able to focus its human 
exploration resources to develop the deep space capabilities 
represented by the SLS and Orion MPCV. NASA's exploration efforts 
include the Orion MPCV spacecraft, SLS heavy-lift launch vehicle, and 
Exploration Ground Systems (EGS) infrastructure required to support 
crewed missions of exploration into deep space, including a mission to 
send astronauts to an asteroid that has been redirected into a stable 
orbit around the Moon.
    Orion will carry four astronauts to, and support operations at, 
destinations in our solar system for periods of up to 21 days. 
Exploration Flight Test-1 (EFT-1), an uncrewed, atmospheric entry test 
mission of the Orion to test spacecraft systems, is on track for launch 
in FY 2014. EFT-1 will see Orion conduct two orbits of Earth and 
reenter the atmosphere at a high speed characteristic of a returning 
deep space exploration mission. The test will provide valuable data 
about the spacecraft's systems, most importantly, its heat shield. The 
flight test article for this mission is already in place at the Kennedy 
Space Center and being readied for this test. In 2012, NASA signed an 
agreement with the European Space Agency (ESA) for ESA to provide a 
service module for the Orion spacecraft's Exploration Mission-1 in 
2017. The new agreement is in accordance with existing International 
Space Station (ISS) agreements and builds on NASA's existing strong 
cooperative relationship with ESA on ISS and other activities. It 
continues and expands international collaboration as humans explore new 
frontiers in the solar system.
    The heavy-lift SLS will initially be capable of lifting 70-100 
metric tons before evolving to a lift capacity of 130 metric tons. The 
SLS will use a liquid hydrogen/liquid oxygen propulsion system, with a 
Core Stage utilizing existing Space Shuttle Main Engines for the 
initial capability. While the first two SLS launches will feature five-
segment solid rocket boosters (SRBs) based on the Space Shuttle SRBs, 
NASA is looking to the future and Advanced Boosters, which may be 
either solid or liquid rockets. For the upper stage, SLS will use an 
Interim Cryogenic Propulsion Stage (ICPS) for the first two exploration 
missions. NASA is evaluating the appropriate phasing of advanced 
boosters and upper stages to meet mission architecture needs and within 
the budget. Later missions will use an upper stage to realize the 130-
metric-ton capability beyond 2021.
    Exploration Ground Systems (EGS) will develop the necessary 
infrastructure and procedures at the Kennedy Space Center to prepare, 
assemble, test, launch, and recover the Exploration architecture 
elements. EGS will focus on the launch complex as an integrated, multi-
use capability to enable more efficient and cost-effective ground 
processing, launch and recovery operations.
    NASA plans to launch Orion on the uncrewed Exploration Mission-1 
test flight in 2017, and the first crewed flight of SLS/Orion--
Exploration Mission-2--in 2021. These two missions will test and 
demonstrate these systems, which will be used to send a crew to visit 
an asteroid which has been redirected into a stable lunar orbit. It 
should be noted that these dates are dependent on the full funding of 
the President's FY 2014 budget request for the Human Exploration and 
Operations Mission Directorate. Together, SLS, Orion MPCV, and EGS 
represent a critical step on the path to human deep space exploration.
    NASA's Advanced Exploration Systems (AES) Division is pioneering 
approaches for rapidly developing prototype systems, demonstrating key 
capabilities, and validating operational concepts for future human 
missions beyond LEO. Activities focus on crewed systems for deep space, 
and robotic precursor missions that gather critical knowledge about 
potential destinations in advance of crewed missions. Major products 
include systems development for reliable life support, asteroid capture 
mechanism risk reduction, deep space habitats, crew mobility systems, 
advanced space suits, and autonomous space operations. As prototype 
systems are developed, they are tested using NASA ground-based 
facilities or flight experiments on the ISS. The AES Division works 
with the Space Technology Mission Directorate to infuse technologies 
into exploration missions, and with the Science Mission Directorate on 
robotic precursor activities.
An Integrated Exploration Mission
    The President's Fiscal Year 2014 budget request continues to 
implement the bi-partisan strategy for space exploration approved by 
Congress in 2010, a plan that advances U.S. preeminence in science and 
technology, improves life on Earth, and protects our home planet, all 
while helping create jobs and strengthening the American economy. This 
budget reflects current fiscal realities by aligning and leveraging 
relevant portions of NASA's science, space technology, and human 
exploration capabilities to achieve the President's challenge of 
sending astronauts to an asteroid by 2025.
    As part of the agency's overall asteroid strategy, NASA is planning 
a first-ever mission to identify, capture, and redirect an asteroid 
into orbit around the Moon. The overall mission is composed of three 
separate and independently compelling elements: the detection and 
characterization of candidate near-Earth asteroids; the robotic 
rendezvous, capture, and redirection of a target asteroid to the Earth-
Moon system; and the crewed mission to explore and sample the captured 
asteroid using the Space Launch System (SLS) and the Orion crew 
capsule. This mission represents an unprecedented technological 
challenge--raising the bar for human exploration and discovery, while 
helping protect our home planet and bringing us closer to a human 
mission to Mars in the 2030s.
    Each mission element will heavily leverage on-going activities 
across the Human Exploration and Operations, Space Technology, and 
Science Mission Directorates. We are currently working to align on-
going activities across these directorates to affordably achieve the 
objectives while we plan this mission. Progress will continue 
conditional on feasibility and affordability. Funding provided within 
the President's FY 2014 budget request will augment our existing 
activities in Space Technology, Science, and Human Exploration and 
Operations to: enhance our near-Earth asteroid detection and 
characterization assets; accelerate advanced solar electric propulsion 
development; and design and test capabilities to capture a small 
asteroid in space.
Conclusion
    NASA, with our commercial and international partners, has embarked 
on a new phase of human space exploration and development. In LEO, we 
are beginning to see the real benefits of the efforts of many nations 
to construct the ISS. The Station has now entered its research phase, 
and the recently announced initial results from AMS reflect just one 
area in which this unique microgravity laboratory is producing results. 
This phase, which will continue through at least 2020, will benefit 
NASA's exploration goals, but also go beyond this by enabling other 
governmental and non-governmental entities to conduct wide-ranging 
experiments that we anticipate will result in a variety of terrestrial 
benefits. This is best reflected in the slogan incorporated into the 
ISS Expedition 34 crew patch: ``Off the Earth . . . For the Earth.''
    All of this research will be supported by a new way of doing 
business: the use of commercially provided services rather than 
Government-owned vehicles to transport crew and cargo from Earth to LEO 
and back again. We are also working aggressively to bring the new 
domestic commercial cargo providers on board. Private enterprise and 
affordable commercial operations in LEO will enable a truly sustainable 
step in our expansion into space--a robust, vibrant, commercial 
enterprise with many providers and a wide range of private and public 
users will enable U.S. industry to support NASA and other Government 
and commercial users safely, reliably, and at a lower cost. NASA is 
proud to help in laying the groundwork for the emerging LEO space 
economy.
    The cost-effective commercial systems will enable NASA to focus its 
own development efforts on the Orion MPCV and SLS, which will send NASA 
astronauts on missions of exploration beyond LEO. These systems will be 
flexible enough to support many different mission scenarios, in the 
decades to come. One of NASA's greatest challenges will be to reduce 
the development and operating costs (both fixed and recurring) for 
human spaceflight missions to sustain a long-term U.S. human 
spaceflight program. Our commercial crew program will reduce the cost 
of U.S. access to low-Earth orbit while ending our sole reliance on 
other nations for delivering crew to the International Space Station. 
We must also plan and implement an exploration enterprise with costs 
that are credible and affordable for the long-term. We are committed to 
developing an affordable, sustainable, and realistic next-generation 
human spaceflight system that will enable human exploration, scientific 
discovery, broad commercial benefits, and inspirational missions that 
are in the best interests of the Nation. Technology development is a 
critical enabler for cost-effective exploration and we are committed to 
the development of the necessary technologies required to explore our 
solar system. We need your continued support for this effort.
    Mr. Chairman, I would be happy to respond to any question you or 
the other Members of the Subcommittee may have.

    Senator Nelson. General Stafford?

                STATEMENT OF THOMAS P. STAFFORD,

 LIEUTENANT GENERAL, UNITED STATES AIR FORCE (RET.); ASTRONAUT 
                             (RET.)

    General Stafford. Chairman Nelson, Ranking Member Cruz, and 
staff members, I am once again honored to appear before you 
today to discuss our Nation's space program.
    But before we begin, I would like to take a moment to note 
that probably we would not be here today on this specific 
subject but for the crucial work done back in 2010 by you, Mr. 
Chairman, as well as former Ranking Member Senator Kay Bailey 
Hutchison of Texas, and by the key Committee Staff Members, Ann 
Zulkosky and Jeff Bingham, and then the House Science Committee 
that was headed by Congressman Ralph Hall of Texas and his 
staff. It was your work in crafting the NASA Authorization Act 
of that year which mandated the development of the heavy-lift 
Space Launch System and the Orion multipurpose crew vehicle 
that has allowed us to envision a robust future for NASA and 
the American space program.
    At a time when bipartisan cooperation in Congress can be 
hard to find, your work stands out as a shining example of what 
can be done when men and women of goodwill are working side-by-
side, put aside their differences, and work together for the 
larger service of our country's interest. As a retired Air 
Force General Officer, former astronaut, and a citizen of this 
country, I thank you, sir.
    Now, three years later, that 2010 Act still bears directly 
on the issues to be discussed at this hearing, which are of 
critical importance to our space program today: the choice of 
resources, destinations, sensible mission planning, and funding 
to reach them, the role of the new heavy-lift SLS and the Orion 
vehicle in carrying out these missions. The new technologies 
and systems, some of which Mr. Gerstenmaier has described, will 
be needed beyond SLS and Orion in a manner which NASA can most 
effectively collaborate with international and with its 
commercial partners.
    In setting and reaching national goals, there is certainly 
a broad and challenging range of issues. And I will try to 
address them the best I can in the time I have with the opening 
statement, and then be pleased to respond to your questions.
    To put my remarks in context, I would like to take us for a 
moment back to 1991 and the publication of ``America at the 
Threshold: America's Space Exploration Initiative.'' This 
report was prepared by the Synthesis Group in a year-long study 
that was chartered by President George H.W. Bush and I had the 
honor to lead. Our charter was to examine in some detail 
exactly the questions we are here to address: destinations, 
missions, systems, technologies, and collaboration.
    This was not the first such Presidential-chartered 
assessment, and it certainly wasn't the last. The vast majority 
have reached the fundamental same conclusions: The core of 
national and international critical thought on space policy has 
been consistent over several decades and among nearly all the 
groups that have studied it. Possibly the best service I can 
perform for the Committee today is to remind us all of that 
fact and to summarize these core conclusions. They can serve as 
a useful guide for us today and in the future if we would only 
heed them.
    Leadership in space, for any society that can aspire to 
attain it, is a key to leadership here on the Earth and in 
human society for all generations to come. While national 
leadership comes with obligations to partners, to allies, it is 
nevertheless the only proper goal to which America should 
aspire. Strategies and policies based on this understanding of 
leadership have placed our Nation in the role of the world's 
most influential country.
    Failure to take this influence into space, failure to lead 
in the development of the next human frontier, will consign our 
Nation to a backwater in which others but not ourselves will 
shape the destiny of human society for the generations to come.
    America's leadership, its power, and its influence in the 
world today was not, as some once thought, a matter of manifest 
destiny. It was earned for us today by our ancestors. We must 
earn it anew for our descendants. And we have earned it, and we 
must earn it in many ways and places. And one of those 
certainly, sir, is in space.
    Thank you, and I will be honored to answer any questions.
    [The prepared statement of General Stafford follows:]

     Prepared Statement of Thomas P. Stafford, Lieutenant General, 
           United States Air Force, (Ret.); Astronaut (Ret.)
    Chairman Nelson, Ranking Member Cruz, and Members of the 
Committee--I am once again honored to appear before you today to 
discuss our Nation's space program. But before we begin, I would like 
to take a moment to note that we would not even be here today, you 
would not be holding this Hearing, but for the crucial work done back 
in 2010 by you, Senator Nelson, as well as by former Ranking Member 
Senator Kay Bailey Hutchison, by key Committee Staff Members Jeff 
Bingham and Ann Zulkosky, and by the House Science Committee under the 
leadership of then-Chairman Ralph Hall. It was your work in crafting 
the NASA Authorization Act of that year, which mandated the development 
of the Space Launch System and the Orion Multi-Purpose Crew Vehicle, 
which has allowed us to envision a robust future for NASA and the 
American space program. At a time when such bipartisan cooperation in 
Congress can be hard to find, your work stands as a shining example of 
what can be done when men and women of good will are willing to put 
aside their differences and work together in the larger service of our 
Nation's interests. As a retired Air Force General Officer, former 
astronaut, and citizen of this country, I thank you.
    Three and more years later, that 2010 Act still bears directly on 
the topics to be addressed in this Hearing, topics which are of 
critical importance to our space program today: the choice of 
resources, destinations, sensible mission planning and funding to reach 
them, the role of the heavy-lift SLS and the Orion crew vehicle in 
carrying out these missions. With the new technologies and systems 
which will be needed beyond SLS and Orion, and the manner in which NASA 
can most effectively collaborate with international and commercial 
partners in setting and reaching national goals is certainly a broad 
and challenging range of issues. I will try to address them as best I 
can in the time I have for this opening statement, and then I will be 
pleased to respond to your questions.
    To put my remarks in context, I would like for a moment to take us 
back to 1991 and the publication of ``America at the Threshold: 
America's Space Exploration Initiative''. This report was prepared by 
the Synthesis Group, a group I was asked by President George H.W. Bush 
with the honor to lead. Our charter was to examine in some detail 
exactly the questions that we are here to address today: destinations, 
missions, systems, technologies, collaboration. This was not the first 
such presidentially chartered assessment, and it wasn't the last. The 
vast majority have reached essentially the same fundamental 
conclusions. The essential core of national, and indeed international, 
critical thought on space policy has been remarkably consistent across 
several decades and among nearly all of the groups which have studied 
it. Possibly the best service I can perform for this Committee today is 
to remind us all of that fact, and to summarize these core conclusions. 
They can serve as a useful guide for us today, and in the future, if we 
would only heed them.
    Leadership in space is, for any society that can aspire to attain 
it, a key to leadership on Earth and in human society, for all the 
generations to come. While leadership comes with obligations to 
partners and allies, it is nonetheless the only proper goal to which 
America should aspire. Strategies and policies based on this 
understanding have placed our Nation in the role of the world's most 
influential nation. Failure to take this influence into space, failure 
to lead in the development of the next human frontier, will consign our 
Nation to a backwater in which others, but not ourselves, will shape 
the destiny of human society in the generations to come. American 
leadership, power, and influence in the world of today were not, as 
some once thought, a matter of ``manifest destiny''. It was earned for 
us today by our ancestors. We must earn it anew for our descendants. It 
must be earned in many ways and in many places. One of those is space.
    The choice of destinations has, in all humility, already been made 
for us. The surface of the Moon is by far the most interesting near-
term challenge confronting mankind in space. It is our proper next 
frontier. We know so much more today than we did when the Synthesis 
Group published its report, and everything we know has served only to 
reveal the Moon to be ever more interesting. Regions of permanent 
sunlight, enormously valuable for supplying power to an early lunar 
base, and nearby regions of permanent shadow, valuable for the trapped 
water they contain, exist at each of the lunar poles. The lunar crust 
is rich in oxygen and other materials which can be mined and used to 
develop a human future in space that will not always depend upon 
bringing supplies up from Earth. We know now that the Moon is far more 
than a dusty ball of rock. It is our nearest neighbor in space, and the 
key to the human future in space.
    After the Moon, when we have learned something of how to live on a 
world other than our own, we will be prepared to venture farther out, 
to go more than three days away from home. That next exploration will 
be to Mars, a place we can be by the early- or mid-2030s, if only we 
can summon the required consistency of policy and purpose for more than 
the length of a single presidential administration.
    There has been debate in the last few years about a human mission 
to an asteroid, or about robotic missions to bring an asteroid back to 
cislunar space, where it can be studied by astronauts and scientists 
without venturing too far from home, too soon. These ideas do have some 
inherent scientific interest. They should not be the central theme of 
any sensible long-term human spaceflight program. Such missions are an 
interesting adjunct to the far more interesting theme of human presence 
of the Moon and, later, and expedition to Mars. These enterprises can, 
and should, occupy our energies for the foreseeable future in space.
    Regarding technologies and systems, every credible study concerning 
how to go about expanding our reach in space focuses, inevitably, on 
the need for heavy-lift launch capability, along the lines of the 130 
metric ton capability planned for SLS, or more. This is the floor of 
useful capability for interplanetary exploration, not the ceiling.
    For the development of cislunar space and the Moon, this heavy-lift 
launch capability must be topped with a large, liquid-hydrogen fueled 
upper stage. This is simply the most efficient approach to space 
exploration of which we know, today and for the foreseeable future.
    To go to Mars, we need more. We need an upper stage powered by a 
nuclear thermal rocket. Yes, it is possible to get to Mars without a 
nuclear rocket, but why would we try to do so? Far from being an 
artifact of a science fiction movie, a nuclear upper stage is something 
we once had--a working, space qualified nuclear rocket lacking only a 
flight test. It was meant to fly on the Saturn 5, the launch vehicle 
that took me and twenty-three of my colleagues to the Moon. That 
combination could have taken us to Mars; instead, it was scrapped in 
1973, four decades ago now, because President Nixon decided that we 
weren't going to venture beyond the Moon, and indeed that we were not 
even going to stay there, would not consolidate the gains for which 
three of my friends had given their lives.
    I have said that we should make it the Nation's business to lead in 
space. We should. But I have also noted that leaders need partners and 
allies. I personally commanded our Nation's first international space 
mission, Apollo-Soyuz, a mission designed and carried out at the height 
of the Cold War. From that mission came, after the fall of the Soviet 
Union, the Shuttle-Mir program and, later, full Russian partnership in 
the International Space Station with ourselves and a dozen other 
spacefaring nations. In the very long run, the greatest legacy of the 
space program will be the international partnerships we have forged to 
build the International Space Station, and will forge again when we are 
ready to return to the Moon and go on to Mars.
    Last year at a joint meeting with the ISS advisory task force and 
our Russian counterparts, the Roscosmos Advisory Expert Council, the 
independent groups that together review and identify major issues for 
the ISS, our Russian counterparts asked to give us a separate briefing. 
This briefing outlined their initial proposed next 20-30 years of human 
spaceflight exploration. It was interesting to note, that they proposed 
the exploration be based on an international partnership which would be 
managed by the same process that the present International Space 
Station is managed. They outlined the use of the SLS and Orion 
spacecraft and their space hardware which would include their new 
Angara booster along with the ESA Arrianne booster and the Japanese H-2 
booster. The Russians said they consider the Moon another continent 
which to explore and eventually an expedition to Mars which would be 
powered out of LEO by a nuclear thermal rocket. This planning is now 
working its way up for approval in the Russian government.
    Concerning the value of such partnerships, I will say this: we are 
simply less likely to fight with those nations and societies with whom 
we seek partnerships in the pursuit of challenging enterprises. Space 
exploration is an ideal venue for such partnerships and such 
enterprises. I was a military man for my entire career, one way or 
another, and I will tell you what every veteran knows: no military man 
wants to see his friends fight and die if there is any possible way to 
avoid it. Partnership in space exploration offers us one of those ways.
    The Apollo-Soyuz mission was the shining light during the Cold War 
era in our relationship with the Soviet Union. Today, the ISS is the 
shining light of our partnership with our 15 partners, and the people 
of their countries, even though other issues between our countries may 
wax and wane. Our future of human space exploration beyond LEO to the 
Moon and eventually to Mars can also be a shining light to all of the 
countries who are our partners in this great endeavor.
    Chairman Nelson, Ranking Member Cruz, Members of the Committee: 
this concludes my opening remarks. I stand ready to answer your 
questions.

    Senator Nelson. Thank you, General.
    Mr. Cook?

            STATEMENT OF STEPHEN A. COOK, DIRECTOR, 
               SPACE TECHNOLOGIES, DYNETICS, INC.

    Mr. Cook. Chairman Nelson and Senator Cruz, I want to thank 
you for your continued support of the NASA Space Launch System 
and many exploration programs and for conducting this hearing 
into the challenges and opportunities for human space 
exploration, particularly your focus on the synergy between 
government and the commercial sector, focusing on how a stable, 
long-term national exploration strategy can provide an 
environment for commercial ventures to thrive.
    The timing could not be more critical. The ramifications of 
the decisions you make could impact space exploration for the 
rest of this century.
    Since 2009, I have had the pleasure and honor of serving as 
the Director of Space Technologies at Dynetics, Incorporated, a 
38-year-old employee-owned business in Huntsville, Alabama, 
with 1,400 employees.
    Prior to my private sector career, I spent almost 20 years 
at NASA. From 2005 until 2009, I served as manager of the Ares 
projects, the predecessor to the SLS, at NASA's Marshall Space 
Flight Center. Previously, I spent several years in the 1990s 
with the DC-XA and X-33 flight demonstrators, which were early 
attempts to move toward commercial-backed space transportation.
    Unfortunately, the fissures that have developed within the 
space community over the past 4 years have too often pitted the 
commercial and government space sectors against each other in 
an us-versus-them debate. This is very unfortunate and 
counterproductive. Historically, successful government-backed 
exploration efforts have been linked inextricably with 
commerce. Government-private-sector partnerships have literally 
expanded the human footprint.
    At its core, commercial means that the private sector bears 
the burden of the investment, the resultant risk, as well as 
the subsequent reward. This principle has been a standard of 
U.S. economic growth since our founding. Private companies can 
be profitable by providing products and services and by 
creating new wealth. However, commercial successes need not be 
limited to the commercial sector. Partnerships between 
government and industry can produce valuable products that can 
benefit the space sector as a whole.
    The current landscape is rife with recent success stories. 
Some that I have some personal examples with are: Dynetics' 
first commercial satellite, FASTSAT, is a culmination of a 
public-private partnership between Dynetics and NASA-Marshall. 
Dynetics invested its own money, supplying the vast majority of 
the capital for the program, while NASA supported the project 
on a cost-reimbursable basis in terms of the conceptual idea, 
engineering capabilities, and facilities. The result: a 
spacecraft ready in 16 months that met rigorous government 
flight standards. FASTSAT successfully operated for 24 months, 
100 percent past its design life.
    Additionally, private industry can take systems developed 
under contract to NASA and leverage these for other purposes. 
This has been done successfully in aerospace projects for 
decades. Recently, in a full and open competitive process, NASA 
selected several SLS advanced booster risk-reduction projects. 
Dynetics has partnered with Pratt & Whitney Rocketdyne in 
developing a liquid booster concept based on the Apollo Saturn 
V's F-1 main engine. Our team is taking a flight-proven design 
originally developed by NASA and is merging it with the best of 
modern commercial manufacturing techniques.
    In addition, we have an agreement with NASA-Marshall which 
allows us to engage experts in propulsion, test, and 
manufacturing and utilize tooling on a cost-reimbursable basis. 
It is a win-win. Dynetics is pleased to support NASA and looks 
forward to the next phase of the competitive process, slated 
for 2015.
    The bottom line is this: When we keep things simple using 
models proven in other markets over time, the commercial sector 
and the U.S. Government can work together in harmony, not 
against one another.
    For this public-private partnership to succeed, a stable 
space policy is necessary, a space policy that transcends 
election cycles. A major policy and program shift now away from 
the core principles of the 2010 NASA Authorization Act would be 
very damaging to U.S. leadership in space. A consistent, long-
term policy will allow both commercial and government efforts 
to thrive. Laying out clear goals, destinations, and dates will 
provide an environment in which the market can and will 
respond.
    In closing, we must recognize the need to work together as 
a community and realize that, as in many other exploration 
efforts, commerce and exploration go hand-in-hand. Let's focus 
on the power of the ``and'' versus the tyranny of the ``or.'' 
In doing so, we must recognize that the U.S. Government plays a 
vital role in undertaking projects that have no business case--
high-risk, high-capital, and long-payoff endeavors. And we must 
recognize that commercial means that the private sector bears 
the burden of the investment and the risk.
    Thank you for the opportunity to testify today. I am 
excited and optimistic about the future, and I look forward to 
enabling it for generations to come. I will be happy to answer 
any questions you have.
    [The prepared statement of Mr. Cook follows:]

   Prepared Statement of Stephen Cook, Director, Space Technologies, 
                             Dynetics, Inc.
    Mr. Chairman and Members of the Subcommittee, I want to thank you 
for conducting this hearing into ``Challenges and Opportunities for 
Human Space Exploration,'' and particularly the synergy between 
government and the commercial sector, focusing on how a stable, long-
term national exploration strategy can provide an environment for 
commercial ventures to thrive. The timing could not be more critical, 
as the Deputy Administrator of NASA stated in her response to the 
recent Government Accountability Office (GAO) assessment of NASA's 
large-scale projects, ``programs are experiencing an uncertain and 
unstable funding environment, which can drive less than optimal phasing 
of current and future program work and can result in program cost 
increases.'' \1\
---------------------------------------------------------------------------
    \1\ U.S. Gov't Accountability Office, GAO-13-276SP, NASA: 
Assessments of Selected Large-Scale Projects, 92 (Apr. 17, 2013) 
[hereinafter 2013 GAO Report] (comments of Lori B. Garver, Deputy 
Administrator for NASA).
---------------------------------------------------------------------------
    This is an exceedingly important discussion. The ramifications of 
the decisions you make could impact space exploration for the rest of 
this century.
    Since 2009, I have served as the Director of Space Technologies at 
Dynetics, Inc., an employee-owned business headquartered in Huntsville, 
Alabama, with over 1,400 employees specializing in Space Systems--
propulsion, launch systems, small satellites, and test; Intelligence--
foreign materiel exploitation; Aviation--unmanned aircraft systems 
(UASs) and sensor integration; and Missiles--aerodynamics, avionics, 
and precision-guided munitions. Founded in 1974, Dynetics has earned a 
reputation for excellence in analysis and engineering. I have gained 
first-hand an appreciation for the challenges facing the private sector 
in the aerospace market, especially in the current political and 
economic climate.
    Prior to my private sector career, however, I spent almost 20 years 
at NASA. From September 2005 until September 2009, I served as manager 
of the Ares Projects--the predecessor to NASA's Space Launch System 
(SLS)--at NASA's Marshall Space Flight Center (MSFC) in Huntsville, 
Alabama. It was a large, complex, government-funded and -led space 
launch project. Previously, however, I spent several years in the 1990s 
with the DC-XA and X-33 flight demonstrators--early attempts to move 
towards commercial-backed space transportation.\2\ I have always been a 
supporter of both government and commercial space transportation 
efforts.
---------------------------------------------------------------------------
    \2\ See, e.g., Stephen Cook et al., ``The Reusable Launch Vehicle 
Technology Program,'' AIAA Sixth International Aerospace Planes and 
Hypersonics Tech. Conf., AIAA-95-6153 (Apr. 1995) and Stephen Cook et 
al., ``X-33 Reusable Launch Vehicle Structural Technologies,'' AIAA 7th 
International Space Planes and Hypersonic Systems and Technologies 
Conference, AIAA-96-4563, (Nov. 1996).
---------------------------------------------------------------------------
    Unfortunately, the fissures that have developed within the space 
community over the past four years have too often pitted the commercial 
and Government space sectors against each other in an ``us vs. them'' 
debate. This is very unfortunate and counterproductive. In what other 
field do we have such arguments about the roles of government and the 
commercial sectors? For example, we do not argue about the need for a 
Navy run by the U.S. Government nor do we want the U.S. Navy 
transporting cruise passengers. Historically, successful governmental-
backed exploration efforts have been linked inextricably with commerce: 
from the exploration of the new world by Columbus to finding a Western 
trade route to the Orient; from the exploration of the West by Lewis 
and Clark to mapping routes for commerce. Government-private sector 
partnerships have literally expanded the human footprint.
    Average Americans are largely unaware of the critical role our 
space presence plays in the comforts they enjoy in their daily lives, 
not to mention its critical importance within the defense sector.\3\ If 
the space community continues to circle the wagons and shoot inward, we 
risk their support and we run the risk of making space more irrelevant 
to the public.
---------------------------------------------------------------------------
    \3\ This subject was also discussed in a recent hearing before this 
Subcommittee on ``Assessing the Risks, Impacts, and Solutions for Space 
Threats,'' held on March 20, 2013. See, e.g., Assessing the Risks, 
Impacts, and Solutions for Space Threats: Hearing Before the S. 
Subcomm. On Science and Space, 113th Cong. (2013) (statement of Dr. 
Joan Johnson-Freese, Prof. of Nat. Sec. Aff. At Naval War Coll., 
Newport, R.I.). ``[B]ecause of the resounding success of NASA and other 
organizations that have been responsible for putting space 
infrastructure into orbit, Americans [are] totally oblivious to the 
role that spaces assets play in [daily activities]. Id. at 2 (emphasis 
in original).
---------------------------------------------------------------------------
Role of Government
    A fundamental role of the government is to provide for our Nation's 
defense--this is a long-established governmental function, enshrined in 
our Constitution, and there can be no argument against it. Another 
crucial role of government, however, is to take on endeavors that have 
benefit to society, are high-risk in nature, require significant 
amounts of capital, and have long payback times--in other words, 
ventures that the private sector cannot take on by itself. These are 
typically fundamental infrastructure projects--expensive, but which 
offer long-term societal benefits. For example, the U.S. Government 
underwrote the development of the maritime system, the transcontinental 
railroad, and the interstate highway system: these took years to fully 
mature, but undisputedly opened up our country in palpable, life-
altering ways.
    The U.S. Government does not operate in a vacuum, however. While 
the Government invests in infrastructure, it has always relied on 
private companies for the labor required to complete the projects, as 
well as to set up the support systems along the way--from telegraph 
offices to gas stations to restaurants and hotels, the private sector 
has provided goods and services necessary to get the job done.
    Commercial programs may, by necessity, move more quickly because 
businesses must make a profit to keep their doors open. While 
government programs may move at a more deliberate pace, for those truly 
difficult tasks--those the private sector will not or cannot take on--a 
meticulous and measured approach is prudent. It is the price we are 
willing to pay, and must pay, for innovation and achieving our 
government's mission and objectives.
    It is undisputed that space is a perfect market for a strong, 
supportive U.S. Government presence--after all, establishing a robust 
space presence is difficult, both technically and economically. Both 
sectors can learn from each other, as is clear from NASA's focus today 
on affordability.\4\
---------------------------------------------------------------------------
    \4\ See, e.g., ``2011 NASA Strategic Plan,'' National Aeronautics 
and Space Administration (2011), available at http://www.nasa.gov/news/
budget/index.html.
---------------------------------------------------------------------------
Commercial-Government Partnerships
    At its core, ``commercial'' means that the private sector bears the 
burden of the investment, the resultant risk, as well as the subsequent 
reward. This principle has been a standard of U.S. economic growth 
since our founding. A corollary is that companies doing business with 
the Government should be subject to a higher standard to ensure that 
such business is transparent and auditable, particularly given that 
public funds are at stake. Private companies can be profitable by 
providing products and services and by creating new wealth (e.g., 
opening up new markets like Helium-3 mining in space). However, 
commercial successes need not be limited to the commercial sector: 
partnerships between Government and Industry can produce valuable 
products that can benefit the space sector as a whole. The current 
landscape is rife with examples of recent commercial-Government program 
success stories.
    For example, Dynetics' first commercial satellite--the Fast, 
Affordable, Science and Technology SATellite (FASTSAT)--is the 
culmination of a public-private partnership between Dynetics, Inc., and 
NASA's Marshall Space Flight Center (MSFC). Dynetics invested its own 
money, supplying the vast majority of capital for the program, while 
NASA MSFC supported the project in terms of the conceptual idea, 
engineering capabilities, and facilities. The result? A spacecraft 
ready for flight in 16 months from inception at approximately one-third 
the cost of the competition--all while meeting rigorous NASA and Air 
Force flight readiness standards. Additionally, the satellite 
successfully operated for 24 months--100 percent past its design life. 
Dynetics now markets this satellite to other users. Dynetics assumed 
the financial risks and can now reap the rewards of the program's 
success. NASA was able to spin off its conceptual ideas to commercial 
industry and put engineers to work on a fast-paced flight project.
    Another example of a commercial venture leveraging NASA's 
investments is Bigelow Aerospace's efforts to develop a commercially 
backed inflatable space station. Robert Bigelow, with his own funds, 
leveraged a NASA-developed concept called ``TransHab'' into a self-
supporting space habitat approach, flying two Genesis test modules in 
space.\5\ Bigelow recently announced that it has partnered with NASA to 
fly a test module on the International Space Station.\6\ While 
leveraging NASA investments, Robert Bigelow has funded the development 
of the inflatable technology with his own money--taking the risk as 
well as the resultant reward. Dynetics was pleased to supply the 
forward propulsion system for his free-flyer module using an innovative 
hydrogen/oxygen system.\7\
---------------------------------------------------------------------------
    \5\ The Genesis I and II modules were launched in 2006 and 2007, 
respectively. Tariq Malik and Leonard David, ``Bigelow's Second Orbital 
Module Launches Into Space,'' Space.com (June 28, 2007, updated 8:08 
PM), http://www.space.com/4007-bigelow-orbital-module-launches-
space.html.
    \6\ See Brian Vastag, ``International Space Station to Receive 
Inflatable Module,'' Wash. Post, Jan. 16, 2013, http://
www.washingtonpost.com/national/health-science/international-space-
station-to-receive-inflatable-module/2013/01/16/8a102712-5ffc-11e2-
9940-6fc488f3fecd_story.html (last visited April 17, 2013).
    \7\ Bigelow Aerospace Sundancer Forward Propulsion System, http://
www.dynetics.com/services/space/bigelow-aerospace-sundancer-forward-
propulsion-system (last visited April 17, 2013).
---------------------------------------------------------------------------
    The Government-Industry partnership can work multiple ways--for 
instance, commercial investments may be further developed in 
partnership with NASA for space-based applications. For instance, 
Dynetics' Advanced Materials and Nanosystems (AMN) group is working to 
partner with NASA to leverage commercial investments in nanomaterials 
and structures to space-based applications. Dynetics researchers have 
pioneered a new rapid prototyping method that will revolutionize 
manufacturing techniques for providing dramatically stronger and 
lighter structures. This technology will enable game-changing leaps 
forward in areas such as reduced vehicle mass and improved 
functionality and durability of spacecraft components, including 
electronics and radiation shielding. In partnership with NASA, this 
groundbreaking method of producing strong, lightweight structures--in 
effect reducing mass properties while increasing strength--will 
revolutionize the space industry.
    Finally, private industry can take systems developed under contract 
to NASA and leverage these for other purposes. This has been done 
successfully in aerospace projects for decades, and could be especially 
useful for NASA projects--for example, NASA's Space Launch System 
(SLS). In a full and open competitive process, NASA recently selected 
several SLS advanced booster risk reduction projects. Dynetics is 
partnered with Pratt and Whitney Rocketdyne in developing a liquid 
booster concept based on the Apollo-Saturn V's F-1 main engine to give 
NASA the most affordable, reliable, and highest performance booster 
possible. Our team is taking a flight-proven design--originally 
developed by NASA--and is merging it with the best of modern, 
commercial manufacturing techniques, such as additive manufacturing. In 
addition, we have a Letter of Agreement with NASA MSFC, which allows us 
to engage experts in propulsion, test, and manufacturing and utilize 
state-of-the-art weld tooling on a cost-reimbursable basis. Under this 
agreement, we are able to tap into NASA expertise, facilities, and 
equipment, while NASA is able to offset its own costs and work hand-in-
hand with Industry on a rapid schedule project--a win-win for both 
Government and Industry. While the prime focus is for NASA boosters, 
such a system has direct commercial application in the expendable 
launch market. Dynetics is pleased to support NASA and looks forward to 
the next phase of the competitive process--slated for 2015--which will 
select one advanced booster provider for the SLS.
    The bottom line is this: when we keep things simple using models 
proven in other markets over time, the commercial sector and the U.S. 
Government can work in harmony--not against each other.
Key to Commercial-Government Success: A Steady, Long-Term Space 
        Policy
    For this public-private partnership to succeed, a stable space 
policy is necessary--a space policy that transcends politics, 
administrations, and congressional terms. The cancellation of 
Constellation caused issues in the space sector that are still being 
felt today across many industries. Another major policy shift now would 
be even more damaging to U.S. leadership in space. Establishing a 
steady, long-term policy, grounded in the principles of the 2010 NASA 
Authorization Act,\8\ will allow both commercial and Government 
endeavors to thrive. Laying out clear goals, destinations, and dates 
will provide an environment in which the market can and will respond.
---------------------------------------------------------------------------
    \8\ NASA Authorization Act of 2010, Pub. L. No. 111-267, (2010).
---------------------------------------------------------------------------
    First, there has been much discussion around the International 
Space Station (ISS) cargo and crew market, but I believe pursuing this 
market alone is too limiting for a space-faring nation, especially 
given our untapped potential. In fact, recent published studies \9\ 
have shown that the ISS cargo and crew market is not large enough to 
support a robust commercial market. However, if we expand the space 
market to include destinations with untapped economic potential--for 
example, a lunar outpost that may support mining of minerals emplaced 
from asteroids over thousands of years--the wealth creation potential 
is virtually unlimited. In addition to new wealth creation, such an 
outpost would require the routine resupply of cargo and crew. The moon 
could be an ideal market for new space companies: penalty for failure 
is manageable, enterprise risk is reduced, and there is ample 
opportunity to refine designs through repeated utilization. 
Furthermore, the Government could guarantee a market for lunar outpost 
cargo prior to human return, serving as the anchor tenant.
---------------------------------------------------------------------------
    \9\ See, e.g., Michael D. Griffin, ``Enabling Complementary 
Commercial and Government Enterprises in Space,'' IAC-11.E3.4.6, 62nd 
International Astronautical Congress, Cape Town, South Africa, (Oct. 
2011). ``The NASA Commercial Resupply Services (CRS) contracts for ISS 
cargo delivery offer a working example of a guaranteed market. However, 
[the] ISS market, whether for cargo or crew or both, is too small and 
likely too short-lived to bring about the robust commercial space 
industry that most space development advocates would like to see. The 
ISS is simply not a program having the strategic scope to provide the 
required market incentives. Something more is needed.'' Id.
---------------------------------------------------------------------------
    In fact, the commercial sector has already shown interest in the 
Moon. For example, the Google Lunar X PRIZE was established in 2007 in 
part to incentivize the market to enable a commercially funded mission 
to the lunar surface, working to jump-start a lunar-based economic 
model. Dynetics is a member of one of 23 teams competing for the $30M 
prize--again, we have taken a risk, but we will also reap the reward. 
We have reduced some key risks, such as propulsion, by developing and 
testing a new thruster system leveraged from propulsion systems we 
developed for NASA and testing out key elements of a rover. This is not 
a technical problem, however, but rather a market issue.
    A core market conundrum in this case lies in the fact that since a 
return to and exploration of the Moon was eliminated as the primary 
mission by the United States in 2010,\10\ many international teams 
planning missions to the Moon have been eliminated, cut back, or made 
less of a priority.
---------------------------------------------------------------------------
    \10\ Including the NASA Authorization Act of 2010, supra note 8.
---------------------------------------------------------------------------
    Here is a case where a change in policy has had a direct effect on 
a commercial business case: if we change directions every few years, 
the market will not invest--and why should it? Like it or not, the 
Constellation Program was designed to implement civil space policy 
articulated by President Bush in the aftermath of the Columbia 
accident. It was modified, extended, and enhanced by both Republican 
and Democratic Congresses in the NASA Authorization Acts of 2005 and 
2008. While the program transcended multiple Congresses, it did not do 
so with the last change in Administration.
    Some lament the difficulty of explaining Space Policy, but I 
fundamentally disagree. While space is a complex endeavor, explaining 
it to our stakeholders--both the public and Congress--need not be 
complex. For example, I can explain the previous policy in a single 
sentence:

        ``The United States will meet domestic and international 
        commitments by using the Space Shuttle to finish the 
        International Space Station (ISS), after which the Shuttle 
        fleet will be retired and replaced by a new system to support 
        space station crew transfer and logistics, enable human lunar 
        return and sustained lunar presence, and pave the way for 
        future voyages to Mars and the near-Earth asteroids.''

    Other important points are captured in both policy and law, 
including especially the intent to foster commercial development of 
space--but this one sentence captures the essence of the policy and 
legal direction for NASA's human spaceflight program for over five 
years. While I am a rocket scientist, it does not take one to write or 
understand a clear space policy.
    Finally, it is clear that if we want to continue the successful 
model of international cooperation from ISS--a model that brought 
together nations from around the globe in a great peaceful enterprise--
the United States must pick a course and stick with it. Constantly 
changing our policy makes us an unreliable partner, and as a result, 
will naturally push our friends and allies away to others. First, the 
United States does not want to become known as a country that breaks 
commitments. Second, it is not in the long-term strategic interest of 
the United States--from either an economic or national security 
standpoint--to encourage our friends to look elsewhere for partners in 
space.
Conclusion
    In closing, public policy decisions can effectively spur collateral 
private development--the key lies in recognizing how the Government and 
Commercial sectors best work together.
    We must recognize the need to work as a community and realize 
that--as in many other exploration efforts of mankind--commerce and 
exploration go hand-in-hand. We must recognize that the U.S. Government 
plays a critical role in undertaking projects that have no business 
case--high-risk, high-capital, and long-payoff endeavors--often in the 
form of infrastructure projects. We must recognize the value of 
international partnerships and show that we value and will keep our 
long-term commitments to our friends as a key part of our economic and 
national security. We must recognize that ``commercial'' means that the 
private sector bears the burden of the investment, the resultant risk, 
as well as the subsequent reward.
    A stable, long-term space policy and supporting programs can and 
will allow the commercial space sector to flourish. A key element of 
this is picking destinations that can have long-term scientific and 
economic value. As one example, the establishment of a lunar outpost 
could align important strategic goals: it facilitates U.S. preeminence 
in cis-lunar space and provides the ``anchor market'' for expanding 
commercial space enterprises. While fundamental capabilities are 
necessary, dates and commitments have always been critical to enabling 
the commercial sector to plan and invest accordingly.
    Never before has a robust Government-Commercial partnership been 
more critical. As the GAO report stated in its April 2013 assessment of 
NASA's large-scale projects, ``Given the current fiscal environment, 
our findings underscore the importance of NASA remaining committed to 
its initiatives to reduce acquisition risk, especially with regard to 
management of its larger and more complex missions.'' \11\ Continuing 
to develop a strong partnership between the Government and Commercial 
sectors will certainly ``help NASA continue the improvements it has 
made to reduce cost and schedule growth in its portfolio and improve 
its ability to successfully manage the fiscal uncertainty that is 
likely to continue for many years.'' \12\
---------------------------------------------------------------------------
    \11\ 2013 GAO Report, supra note 1, at 70.
    \12\ Id.
---------------------------------------------------------------------------
    Thank you for the opportunity to testify today. I am excited and 
optimistic about the future in space and look forward to enabling it 
for generations to come.

    Senator Nelson. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    And thank you again to each of the witnesses today at this 
hearing.
    Mr. Gerstenmaier, I would like to start with you. There has 
been much discussion recently about the asteroid rendezvous and 
retrieval mission. And I would like to ask you to share what 
NASA sees as the specific benefits of successfully 
accomplishing that mission and also what you see as the most 
significant obstacles to successfully accomplishing that 
mission.
    Mr. Gerstenmaier. I think in terms of the benefits of the 
mission, like I described in my oral remarks and said in my 
written testimony, this mission brings together some activities 
we were already doing.
    The Science Mission Directorate was off busily looking for 
potentially hazardous objects that could impact the Earth. They 
were off surveying those. We will expand that to now look for 
smaller objects that could be part of this mission that we 
described.
    We were also off looking at a demonstration flight to 
develop solar electric propulsion. That is needed if we are 
going to go the distances to Mars with cargo and crew 
eventually in that kind of timeframe. So, again, that brings in 
that solar electric propulsion activity that was going to 
occur.
    It also gives us a very good destination for the Orion 
capsule and the SLS vehicle. It can reach this deep retrograde 
orbit where we would place this object to be examined.
    It also gives us a tremendous amount of experience in 
operating in deep space. You know, we will be out in the 
vicinity of the Moon, roughly 9 days away from return back to 
the Earth, and that is very different than where we are today 
on Space Station, just several hours away.
    So learning to operate with crews in those regions, in 
those distant regions, learning how to do the orbital 
mechanics, dynamics, all of those things really brings together 
all these aspects, the Science Mission Directorate's 
activities, the Space Technology Directorate's activities, and 
my directorate's activities, all together in a unified mission 
that really builds us a capability that will be critical for us 
to move forward. So that is really the advantage I see of this 
mission.
    I think the challenges of the mission will be finding a 
suitable target to return. You know, it is sometimes talked 
about that--it is talked loosely that the target is dragged 
back to this orbit. It is not really dragged back; it is 
actually returning naturally to the Earth-Moon system. We will 
deflect it using the gravity of the Moon and the gravity of the 
Earth into this stable orbit for examination.
    So it is not going to be easy to find this target. We 
believe there are many targets of this size. But we have not 
really looked at this smaller-diameter targets, or smaller 
targets.
    So I think it will be a challenge to find the target. It 
will be a challenge to capture this target or attach the 
spacecraft to it. But, again, I think it will drive technology, 
it will drive capabilities that will be critical for us if we 
are really going to go beyond low-Earth orbit with humans and 
we are going to continue to explore space the way we have 
intended.
    Senator Cruz. Now, as I have been educated by our learned 
chairman, my understanding is that the mission contemplates 
bringing an asteroid back into orbit of the Earth in what would 
not be a more typical elliptical pattern, but rather a more 
irregular orbit.
    Do I understand that correctly? And if so, could you 
explain that a little bit?
    Mr. Gerstenmaier. Yes, actually, the idea is to return the 
object to a deep retrograde orbit, which, in a reference frame 
of rotating with the Moon, it looks like it orbits the Moon at 
75,000 kilometers off of the Moon. But if you look at it in 
more of an inertial frame, you will see the object kind of 
wander between the Moon and the Earth, and it looks like kind 
of a little loop that I think probably you saw.
    What that is is the interaction of the gravity of the Moon 
with the gravity of the Earth that effectively keeps this 
object trapped in that orbit around the Moon. So I think the 
simplest way to think of it is in stable orbit around the Moon, 
but then if you change reference frames, it looks like a little 
curlicue kind of around the Earth and the Moon, in that 
direction.
    But the orbit is unique in the fact that it is stable, and 
it is also exciting because we can get there with the early 
versions of the SLS and with the Orion. So we don't have to 
alter any of the plans we had for either Orion or SLS to go to 
this region.
    Senator Cruz. You know, one of the important roles, I 
think, that this subcommittee can play is helping NASA 
articulate the benefits of the space program to our Nation. And 
I would be curious how you would articulate to the man on the 
street why he or she should care about going and getting an 
asteroid.
    Mr. Gerstenmaier. I think one obvious thing to think about 
is, you know, we have recently had the 15-meter asteroid impact 
the Earth over Russia. For us to gain experience in 
understanding asteroids and surveying even the smaller ones I 
think can bring real benefit to folks here on the Earth.
    Also, the techniques we will use of flying around and 
attaching a spacecraft to this object, those activities will 
have, again, direct application to helping to protect the 
planet. They are not 100 percent compatible for what you would 
do for an object in the tens of meters to several hundred 
kilometers size range compared to this little 7-meter object, 
but many of the techniques are similar. Much of the experience 
we gain could be very important as we try to protect our planet 
from these objects that are clearly in an orbit that could come 
back and impact the Earth.
    So I think the benefit is you get a chance for us to 
actually understand better what objects are in the environment, 
not just the big ones but also the smaller ones. And then 
ultimately you develop some techniques that can help protect 
the planet from these objects if they were to approach the 
Earth.
    Senator Cruz. And if I could ask a final question to 
General Stafford, you have spoken about the benefits, in your 
opinion, of another manned flight to the Moon. I would welcome, 
if you could share with the Committee, what you would see of 
the benefits of another manned flight to the Moon and the 
relative benefits of that mission compared to the asteroid 
rendezvous and retrieval, to the extent one or the other is 
seen as mutually exclusive.
    General Stafford. Thank you, Senator Cruz.
    To me, it is not either/or. When you develop the SLS and 
the Orion and the support structure for this, from the control 
center at Houston, from the launch center at the Cape, you 
develop the capability. And the asteroid mission is a mission; 
it is not the total.
    And in most of the studies that I have participated in and 
what we now have learned from the Russians of what they are 
looking at, their long-term plan, that the final goal is at 
least an expedition to Mars. But from that, you learn on the 
Moon. And I headed this group for nearly a year to study that. 
There is a whole book on it. And what we learned from that is 
the operational procedures and the hard work it takes to do 
this. There is a reason--you know, a lot of reasons.
    As I started out the charge that I had from Vice President 
Quayle and President Bush, Sr., it was to give them the 
technology priorities and the architectures of how we do it. 
Approximately 4 months into the study, it became obvious to us 
that we should say not only how do you do this, sir, but why do 
you do this, why do you go back to the Moon. In fact, we had a 
senior steering group that asked us, ``We have been to the 
Moon. Why don't we just go to Mars and do that?''
    And so we dug into this. And it is very detailed, and the 
book is still regarded by some as a bible as far as space 
exploration beyond LEO. And it tells what you can do, and also 
it prepares you to go further out. But in providing this 
infrastructure, you have this.
    And, again, when we talk about commercial, I can say this: 
that NASA itself has never built any hardware. Just like in the 
Air Force, where I was deputy chief of staff, when I had 
resource development and acquisition, the Air Force has never 
built a piece of hardware. We have done research in 
cooperation, but it has all been the commercial sectors that 
built it.
    But, to me, there are many reasons that the Moon is the 
next goal to prepare in operations, and also it will do a lot 
of things inspiring generations.
    And on that, on a recent visit to Russia last year with the 
advisory task force to the ISS that I chair--pro bono work 
there with about six or eight other people. We have our Russian 
counterparts in Roscosmos. They laid out to us, and I think we 
are the first Americans to see this, their proposed start of 
their next 20 to 30 years of human spaceflight. It is working 
its way up through the Russian government for approvals or 
modification.
    And in that, I thought it was very important, Senator Cruz, 
that they said they would propose the same framework that the 
International Space Station is managed by, with the partners. 
We have it; it is working good. It is a shining light to the 
world of how people can work internationally. And this is what 
the Russians have proposed.
    In that, they showed us that they would use the SLS-Orion, 
they would use their new Angara, their hardware, the Arrianne, 
and that. So it is a unifying portion. But there is a lot of 
reasons as to why, but the main reason, finally, and I think 
nearly every administration has said, yes, someday we should 
have an expedition to Mars.
    Thank you, sir.
    Senator Cruz. Thank you, General.
    Thank you, Mr. Chairman.
    Senator Nelson. Well, thank you, Senator Cruz.
    Mr. Cook, pick up on that. We have this plan with SLS and 
Orion. Prior to that, a robotic mission to capture and bring an 
asteroid to this retrograde lunar orbit. We learn from that. 
Perhaps we go back to the Moon's surface. We learn from that, 
as we are getting prepared for the 2030s to take humans all the 
way to Mars, to take cargo to Mars that could precede the 
humans.
    And tell about how this is going to be a new opportunity 
for commercial involvement.
    Mr. Cook. Well, Senator, that is an outstanding question.
    If you look at the opportunities that are in space, I think 
we have too often thought of space as a very niche place, you 
know, where only a very few people can go at this point in the 
game. I think we have to change the game and look at it as a 
marketplace, much as the way Thomas Jefferson looked across the 
United States and what the potential economically would be for 
the Nation some 250 years ago.
    So if we look at it in that context and you look at 
something such as an outpost, such as an outpost on the Moon, 
following up what General Stafford mentioned, you know, not 
only would an outpost like that be an opportunity for new 
wealth creation--you know, mining of minerals that have been 
placed on the Moon and then even on asteroids later on, for 
thousands of years. It could be mined for various uses. Helium-
3, for example, for energy production, which I know you are 
familiar with, is one option.
    But, as well, it is an opportunity for routine resupply of 
crew and cargo, much as what is going on with the International 
Space Station now, where it becomes a marketplace. You know, 
you will need tens and eventually hundreds of tons of cargo 
initially and then crew later that would have to supply 
outposts of these types. And that is a perfect marketplace for 
the commercial sector to get involved and to make investments.
    But I think the key there is there has to be a long-term 
plan, there has to be dates associated with that long-term 
plan. And when there are and there are commitments, then the 
private sector will be willing to lay out business plans and 
business cases to be able to go and move forward. I think that 
is a key piece of this, in terms of how we move forward with 
the exploration.
    I think there is, again, new wealth creation, logistics 
support. I mean, really, it is almost endless. The key is that 
long-term plan with those dates that allow us in the commercial 
sector to leverage that and look for ways to be profitable.
    Senator Nelson. And, General Stafford, you were talking 
about international cooperation in the commercial development 
of these capabilities. Do you want to expand on that?
    General Stafford. Well, the experience I had besides my 
first international effort was Apollo-Soyuz. But then as the 
Air Force Deputy Chief of Staff, I was the configuration 
manager of probably one of the largest international 
cooperations for defense, and that was production of the F-16. 
And that was well over a $100-billion program in which we had 
Norway, Denmark, Belgium, the Netherlands co-producing the 
airplane that was built in Texas by General Dynamics to start 
with and we continued on from that. But it was commercial 
entities in those countries.
    So that was on the DOD side. And then from the Russian 
side, what they propose and what we are doing today, in that, 
again, it is commercial in that all the manufacturing is done 
by the commercial entities.
    Now, then the market, as far as supplying, is what has been 
described here by both Mr. Gerstenmaier and Mr. Cook as 
supplying to the station. But the marketplace today is the U.S. 
Government and the partners that are on board there. But I have 
had experience both in the Department of Defense and also now 
in working there with the Russians on this.
    Senator Nelson. Mr. Gerstenmaier, recently, NASA has said 
that the SLS is ahead of schedule. What has NASA done to make 
the SLS so different?
    Mr. Gerstenmaier. I am not sure the SLS is ahead of 
schedule. I would say we are on schedule.
    But we are moving out pretty well with all our contract 
activities. You know, we picked the rocket design to be 
consistent with the budget environment we were in. For example, 
we used the shuttle main engines as the primary propulsion 
system on that rocket, so we didn't have to go do development 
initially for those liquid rocket engines.
    Also, the solid rocket motors on the side, those came, 
again, from the previous programs and have basis back in the 
shuttle heritage, so we don't have to do any more qualification 
firings of those, or any more developmental firings for those. 
We need to do two more qualification tests.
    So we are able to leverage off of a lot of our experience 
we have had before with the hardware design and rocket design 
to keep us moving forward.
    So I believe the SLS is on track. It is still not easy. The 
equipment, the welding equipment is starting to show up down in 
New Orleans now and get assembled. We are starting to begin 
kind of the first series of welds, to make sure all that 
happens. The design work is getting done, the wind tunnel work 
is getting done. All of that has been completed. There are not 
any big problems or showstoppers with all that. But there is 
still a lot of work in front of the teams. But they are very 
motivated. They are moving forward, and we are making solid 
progress toward the 2017 timeframe.
    Senator Nelson. As with the authorization bill, it was to 
utilize a lot of the technology that we had already developed. 
What are some of the gaps, technology gaps, that NASA and its 
partners have to overcome to operate in cislunar space?
    Mr. Gerstenmaier. Yes, there is a variety of kinds of 
things we need to look at in cislunar space.
    As I described, when we operate in this vicinity around the 
Moon, you know, we are now days away from return, from safe 
return. So our vehicle needs to be, you know, fully redundant, 
fully capable of taking failures and still keeping the crew 
safe. We need to make sure we have the right medical provisions 
for the crew, that they can be in that condition for 9 days 
without any ability to get back to the Earth or to get to any 
kind of medical care.
    Those are different ways of operating. You know, we have 
typically always been able to have an abort mode or an easy way 
to get back. This is going to be a different way for us to 
operate in that region.
    We also need to deal with the radiation environment of 
space. Again, we can deal with it for the short durations 
around the Moon, on these 22-day missions or so. But then, as 
we start venturing out into space, we are going to need to get 
some more shielding, look at some water to potentially shield, 
maybe some spacecraft designs to shield. So there is some work 
that needs to be done there.
    And also the humans, we are learning a lot on Space Station 
how the human body thrives or lives or survives in space in the 
extended microgravity conditions. This 1-year increment with 
our crews we plan in 2015 will be a really important 
demonstration to see how well the human body really performs.
    The Russians have flown in space for over a year before, so 
it is not brand-new territory for us, but they have not flown 
with all the detailed instrumentation and all the detailed 
medical exams that we will get during that increment. And that 
will really show us, is the human body really ready to go for 
these extended durations.
    So we have lots of things to learn, both spacecraft-wise, 
human-vehicle-wise, et cetera, as we move forward.
    Senator Nelson. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Mr. Cook, you had talked some about the potential for 
additional commercial involvement in human exploration beyond 
low-Earth orbit. Could you elaborate on what you see as the 
potential opportunities both in the near term and in the longer 
term?
    Mr. Cook. Senator, thank you very much for the question. 
That is a good question.
    And, again, from a standpoint, I think you look at it in 
two categories. One is in new wealth creation. This is probably 
more of the longer term. You have efforts out there today that 
are looking at mining asteroids. Planetary Resources, for 
example, has plans to do that. Also, there is a venture out 
there called B612 that is looking at asteroid detection, things 
of that nature.
    Recently, NASA signed a Space Act Agreement with Bigelow 
Aerospace to look at the broader set of implications for what 
does the commercial marketplace look at beyond low-Earth orbit. 
And I think that is in a two-phase-gated approach. The results 
of that, I think, are going to be very interesting in terms of 
what comes.
    But I think for new wealth creation, in particular, whether 
it be new space stations in low-Earth orbit, which is probably 
nearer-term, and there are plans that are in place for that 
now, as well as longer term, again, an outpost on the lunar 
surface, for example, could be used for mining purposes, that 
you are going to have to have logistics servicing of that 
outpost. And so those go hand-in-hand.
    The key to that, again, is having that consistent, long-
term plan in terms of how you want to put all that together.
    Senator Cruz. One thing you have referred to several times 
is potential opportunities for mining. I think it would be 
helpful if you could share our best knowledge and predictions 
as to what the mining opportunities might be either on 
asteroids or on the Moon itself.
    Mr. Cook. Yes, there is a--and I would certainly be willing 
to take some more, Senator, some more time and respond to that 
more fully for the record. There are quite a few studies out 
there.
    But, in particular, two minerals that have been talked 
about the most: Helium-3 that is in abundance on the Moon. That 
has potential application to fusion power here back on Earth, 
very clean power.
    The key there is there has to be a low-cost infrastructure. 
You have to have the Interstate Highway System, if you will, 
between here and the Moon to be able to get it back and forth. 
That is where things like SLS comes into play, where that is 
the government-private-sector involvement, to be able to get 
the resources there to mine it and then bring them home, for 
example. And there has been a lot of work done on that by the 
University of Wisconsin, as a matter of fact.
    And then platinum has come up as a--which is obviously a 
very valuable mineral that could be used back here on Earth.
    Those are just two examples.
    Senator Cruz. Thank you.
    Mr. Gerstenmaier, if Congress were to enact legislation 
that specified a specific major long-range goal for human 
exploration, say, a lunar base on the Moon or a human landing 
on Mars, how long would it take for NASA to develop the 
specific description of the component elements that would be 
needed to meet such an objective?
    Mr. Gerstenmaier. You know, when we look at both of those 
objectives you just described, I would say the SLS that we are 
putting together, the heavy-lift launch vehicle, it is designed 
to meet both of those objectives. Initially, it is 70 metric 
ton to low-Earth orbit capability; eventually grows to 130 
metric ton capability to low-Earth orbit. That is the kind of 
heavy-lift capability we believe we need to get to Mars kind of 
destinations.
    The Orion capsule is also, again, sized for that mission. 
It is more than a capsule. It is also provides a life support 
capability or kind of an emergency backup. It will have to be 
teamed with a habitation module if you are going to go extended 
durations in space. But if there is a problem with the 
habitation module, Orion has enough redundancy, enough space 
inside that it could be a safe haven for the crew for a period 
of time. So that is why it is bigger than a typical capsule.
    So I think those two pieces are part of the infrastructure. 
We could lay out the other pieces of infrastructure we need. We 
need some of these operational techniques I described to you 
that would come from the asteroid mission. You can lay those 
in, put those in place.
    You know, Mars is a huge step for us in terms of distance, 
radiation exposure, exposure of the crews to microgravity. Just 
the sheer magnitude of that activity is going to take some time 
for us to prepare. We have conceptually said 2030s sometime is 
the appropriate time for Mars, but we can only do that with 
sufficient funding and moving forward.
    But we have those first pieces of that activity already in 
place with SLS and Orion. So I believe we are starting to put 
together that capability. We will continue to add to it as we 
go forward. This asteroid mission fits in that same scenario. 
It also adds to that capability and eventually achieves those 
kinds of goals that you just described.
    Senator Cruz. Thank you, Mr. Gerstenmaier.
    My final question I would like to address to General 
Stafford.
    You are someone who has spent a lifetime in public service 
serving your nation, and you have been involved with space 
since really the dawn of the space age.
    I would like to give you an opportunity to respond to the 
same question that I asked Mr. Gerstenmaier in the first round, 
which is, if you were talking to a man on the street, a young 
man, a young woman, today, and that individual asked, why 
should I care, what difference does any of this make to my 
life, how would you answer that question to the man or woman on 
the street?
    General Stafford. Right, Senator, let me start from the 
macro and work down to the micro.
    You know, recently, in the last few days, unfortunately we 
lost one of the great journalists of America, Mr. Allen 
Neuharth, who the chairman knew very well. And he started 
Florida Today, and then, against all odds, he started a 
national newspaper which you can now read internationally.
    And Neuharth traveled throughout the United States 
consistently, and he would still write--his age was nearly 90--
write a weekly column. And he had a pulse of the American 
people. And he stated--it was in a special edition that they 
made for him--that to be number one on the Earth, you also have 
to be number one in space. So from that, you need leadership. 
And leadership will take then with partnerships and that.
    To get down more in specific terms, it talks about the 
inspiration that it gives to the younger people. That is, I 
think one of the great things that came out of Apollo besides 
the infrastructure we left there that you see at the Cape with 
the VAB and the pads and the knowledge of how we do this, the 
main thing is, what inspires you to go forward? And, to me, it 
is an inspiration and education. You say, sure, you can do 
inspiration and education with other means. But, to me, the 
inspiration and the education and the leadership and working 
with the other people is the main thing.
    I wish I had time, sir, to go into what we worked on for 
that year to explain why we should go back there, besides how 
we should do that.
    But one thing I would like to point out, with the 
infrastructure that is there now for most of the facilities and 
the heavy lift that the 2010 act puts forward, that type of 
vehicle, the SLS, will put in--and, again, they said 130 metric 
tons, Senator. They said that was a minimum, a floor, not the 
ceiling. And when the booster I commanded to the Moon shut off 
in low-Earth orbit before we kicked out to the Moon, we had 
300,000 pounds. And today the heaviest lift launch vehicle 
available is a Delta IV that has 50,000 pounds.
    Now, at times, some people will say, well, let's take it 
with a bunch of small ones and put them together. I am sure you 
or your staff have had people come by and say that. But it is 
just not possible because you would have to build, completely 
assemble, launch, check out.
    And then way before that, let's go back nearly 50 years, 
and the senior people at NASA after President Kennedy said we 
will go to the Moon and return--I like the word return,'' sir.
    [Laughter.]
    General Stafford. It was decided that all the upper stages 
will have as fuel liquid hydrogen because of the great impulse 
it gives us. And that was what was the key to the Saturn V. And 
today the Air Force expendable launch vehicles, the upper 
stages are all liquid hydrogen. And it gives a specific impulse 
in a measure of about 450 seconds versus hydrocarbons, which 
are good for the first stage, maybe 300. And now solid-rocket 
motors are getting up near that 300 seconds. But you need that 
hydrogen to go out there.
    There is also a problem, and that is, because of the 
temperature, minus 423 degrees, or in oxygen, the 290-some 
minus, it boils. And it tends to boil off like--I think the 
best thermal protection we have, we might get 1 percent or a 
half a percent a day boil-off. So you see where that leaves 
you.
    So there are a lot of challenges for Mr. Gerstenmaier and a 
team to work on. But that was a heritage of Apollo that we 
left, as to how do we get the propellants, the facilities, and 
everything to go there, and how we should do it.
    There is also another thing, and Senator Nelson and 
Minority Leader Hutchison put forth this bill. When you have 
this large SLS, you have a large diameter volume in there that 
you can carry a payload. When you have these small diameter 
rockets that people say they could put together, you do not 
have the volume for the payload. You just can't go and bolt 
them together. And you are also working against the boil-off 
all the time.
    So I am sure you probably have had people come by and talk 
to you or your staff has on that. I just wanted to put that out 
there.
    But back about the main thing, is the inspiration to the 
younger people. And I will be glad to provide your staff with 
one of those books.
    Thank you, Senator.
    Senator Cruz. Very good. Thank you, General.
    Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator Cruz.
    General Stafford, on that point, share with us, since you 
were a part of the Apollo program, the generation of scientists 
and technicians and mathematicians that the early space program 
spawned.
    General Stafford. Well, Mr. Chairman, it is amazing today 
that when talking to people or I get recognized or people I get 
introduced to, so many people have said, the reason that I 
studied to be an engineer or I studied to be a doctor or 
something was because I saw what you did in Gemini, what you 
did in Apollo, and that inspired me. Yes, I wanted to be an 
astronaut, I realized that the chances were very small, but 
that still inspired me. That is why I wanted to be there.
    So I think there has been such a tremendous fallout from 
that that helped move our country forward. And you see where we 
stand. We still have the best research and development in the 
world in this country, and this technology is what makes this 
country great. When we lose that inspiration to go forward and 
have this technology, then we have lost a lot.
    Senator Nelson. Now, let's go from the heights of 
inspiration to the depths of reality.
    Mr. Gerstenmaier, what happens if sequestration across the 
board continues and affects the NASA budget in 2014 and beyond?
    Mr. Gerstenmaier. Well, simply, we can't deliver the 
programs that we have committed to you we would deliver.
    You know, we can tolerate the 2013 sequester activity that 
occurred to us because we are prepared. But if it continues 
into 2014, the programs I described, the timetables I described 
to you, I don't believe we can continue to support it at the 
levels we did. So this is really going to be tough for us 
moving forward.
    Senator Nelson. And are you in a position, from your 
platform of the 2013 budget and what you project into the 
future, are you in a position to really encourage the private 
sector to get involved and develop these space exploration 
technologies that are advanced?
    Mr. Gerstenmaier. Yes, I think, again, the President's 
budget that was just submitted or just released that you have 
seen for 2014 and now, that keeps these programs moving forward 
and includes some technology development. It also involves us 
working with the private sector to continue to move forward.
    You know, we have done a lot in the cargo and crew world, 
but I think there is even more we can do in other areas. So we 
will continue to look to the private sector to partner with 
them to move forward. I think, as Mr. Cook said, the 
partnership between the government and the private sector needs 
to be there. We need to use each other, use the best of both 
activities to figure out a way to work jointly together and 
move forward. And I think that is key to us moving forward.
    So, as we talked in this hearing, I think international is 
important to us, and then private-public partnership is also 
tremendously important to us.
    Senator Nelson. General Stafford, when we were in the great 
space race to beat the Soviets to the Moon, they tried, they 
had this big rocket, and that big rocket blew up.
    Tell about that and tell what happened there. And tell 
about the derivatives of that rocket, how they are actually 
using it in the commercial sector today.
    General Stafford. Mr. Chairman, I will be glad to, to the 
best of my knowledge.
    When we made the commitment to go to the Moon, the Soviet 
Union at the same time made the commitment to go too. But, 
again, one of the keys we made, as I mentioned, was a decision 
to go to liquid hydrogen in those upper stages and with large 
thrust engines, which we had never done before, and also the 
first stage.
    And building a large rocket engine is a very difficult 
task. The bigger you get, the more then tend to go unstable and 
explode. In fact, when I was flying in the Gemini missions, the 
F-1 engines we had on the giant Saturn was still exploding on 
the test stands, which is not too much of a comforting feeling. 
But over a period of time, they worked out the right form of 
the injectors and worked that out.
    That is one thing the Soviets never could work out, was to 
build a large single-chamber engine. And you even see it back 
into the Soyuz rockets they are flying. You see all those 
nozzles. They are really one engine but four barrels. And then 
on their RD-170, which had as much power as our F-1, they could 
not get a stable combustion, so they went to four different 
barrels.
    Now, on the large N1, which was bigger than our Saturn V, 
it had nearly 10 million pounds of thrust, but instead they had 
30 engines on the first stage. I would term it a plumbing 
nightmare. And I talked to my dear friends early on often; he 
watched as the first one started up and then exploded and blew 
pieces about 10 kilometers away.
    And they did not have the technology, as far as the gimbals 
on it. And so they were going to change altitude by throttling 
the engines, which was not a bright thing to do. And they were 
going to use kerosene and liquid oxygen in all of their stages, 
which had the far lower impulse. So even though the booster had 
nearly 10 million pounds of thrust and weighed more than the 
Saturn V, it did not have near the payload to get out there, 
and they had too much complexity in that.
    Now, the engines, those 30 engines they had on the first 
stage was called the NK-33; they have now been taken by Aerojet 
and modernized and called the Aerojet 26. And they have put 
gimbals on them, rechecked them, and they just recently flew 
perfectly on this flight by Orbital Sciences, which developed 
to--on their booster, which will go to supply cargo to the 
Space Station. So those are 45-year-old engines, but they have 
been modernized and evidently work perfectly, sir.
    Senator Nelson. Mr. Gerstenmaier, Space Station, it is 
doing well, with a crew up there working on science. How about 
telling us, do you all have any feeling about, since we 
extended in law its life to 2020, what about extending it 
beyond 2020?
    Mr. Gerstenmaier. You know, our discussions with some of 
the commercial groups--and you could probably talk to the 
Center for the Advancement of Science in Space, the CASIS 
organization. You know, their feeling is that if they knew 
Station was going to be around beyond 2020, there might be a 
different market on the commercial side that would be 
interested in using Station.
    So I think we are starting to hear kind of the groundswell 
from outside users and other folks that Station is proving to 
be a very vital asset. They would like to do research there. We 
are kind of starting to see a lot of Earth observation payloads 
go to Space Station in the next couple years. And I think if 
the horizon for Space Station was extended, the market might 
actually get a little bit larger.
    But I think it would be worth a good discussion with the 
private sector about what they think about that and if they saw 
a bigger market if Station got extended and moved forward. But 
I am starting to hear general indications from the user 
community that extending the life of Space Station would be a 
very good thing.
    Senator Nelson. Can you speak as to some of the vaccines 
that are being developed now and being tested?
    Mr. Gerstenmaier. Yes, there is not actual vaccine work 
being done, but it is more kind of generic research being done 
on Station. The two big areas of interest are immune system 
degradation, which occurs in our crews-on-board station. Their 
immune systems are not as functional in space for some reason.
    That proves an interesting way to test potentially new 
drugs that affect the immune system. We are going to have the 
ability to take rodents to space here next year on Space 
Station, and they can be used as a test medium for potentially 
new drugs that are being developed on the ground. And before a 
pharmaceutical company wants to take those into final FDA 
trials, they could actually do a very simple experiment to see 
if this candidate drug is effective in preventing the immune 
system from becoming less effective. So there is some work 
going on in that area.
    We also see gene expression in space that is very 
different. That allows some innovative ways to go look at 
things such as, we have talked before about the salmonella 
vaccine that can be then developed based on indications of the 
variations in genes from samples that were flown to Station.
    So there is quite a bit of interest in the pharmaceutical 
area along these lines in both potentially dealing with 
bacteria and the change in the genes that occur in space and 
then also in the immune side. So both of those are very 
promising areas that have real application to folks here on the 
Earth. This is another way of getting insight into potential 
new drugs and their effectivity, and we can do it in a fairly 
quick manner by using space to do that.
    Senator Nelson. Did you say that the human immune system 
works better in space or less better?
    Mr. Gerstenmaier. Less better. It doesn't work as well.
    Senator Nelson. And how about the vaccine for MRSA?
    Mr. Gerstenmaier. Again, it can also benefit potentially 
from this same gene expression thing. We can get a chance to go 
look at different ways the genes are expressed, and then that 
can potentially lead to potentially some type of drug that can 
help with MRSA.
    So, again, it is giving us--what happens in microgravity is 
it gives us a unique insight into the way the bacteria and 
genes express differently in space than they do here on the 
ground. And that unique change can then let the researcher 
develop new techniques or new, I guess, ways to protect against 
the particular diseases that are there.
    And there is a whole variety of them. MRSA is one. Any 
bacteria in space, a new, novel way of trying to protect 
against it can be developed from research in space.
    Senator Nelson. I want to ask you, what are the other 
missions and destinations that are necessary as we get ready 
for a long-distance mission to Mars?
    Mr. Gerstenmaier. Again, I think Space Station can be kind 
of that first step. We can gain a lot about how the human 
performs for long-duration exposure to microgravity, so that is 
an important thing.
    Station is also a good test bed to go look at life-support 
systems, the systems that generate oxygen, remove carbon 
dioxide, reprocess water. Those systems on Station can be run 
for extended durations, and we can develop a low-maintenance 
system that doesn't require a lot of maintenance, that doesn't 
require a lot of hardware to keep it operating on Station, and 
we can improve that system essentially on Station.
    So that long-duration life-support system that will be 
necessary to keep our crews alive on journeys to Mars, that can 
be tested on board Space Station. In fact, our next generation 
of life-support systems on Station we intended to be the 
exploration systems that we will fly in the future.
    So Station is giving us a unique chance to experiment with 
technologies that we are going to need to go into the long-
duration flights to distances such as Mars.
    Senator Nelson. And describe how the Station will serve as 
a platform to develop the propulsion technologies to go to 
Mars.
    Mr. Gerstenmaier. Again, Station is a good platform to 
check things out. We have been looking at potentially 
installing some small thrusters on Station. We are not sure we 
are going to do this or not. They could look at drag make-up. 
But, again, it could be essentially a test facility for those 
small thrusters.
    You know, we are also seeing, in the same vein, we are 
seeing a lot of instruments that people would like to add to 
their spacecraft. They can take those, again, to Space Station, 
they can check those instruments out on Space Station, and then 
they can add them later to their spacecraft.
    So Station is proving to be a very interesting proving 
ground. You will see in the next coming years some things fly 
that are flying on dedicated satellites. For example, the 
carbon observatory that is going to fly is a dedicated 
spacecraft. There will be a companion set of instruments that 
are essentially the spare instruments from that spacecraft. 
Those will fly to Space Station. They will be attached to Space 
Station. And they will also give us insight into carbon 
generation on the Earth.
    What is interesting is a satellite flies in a sun-
synchronous orbit, so it looks at carbon generation at 
essentially the same solar time every day. So you see carbon 
generation at one point of the day. That is a very good 
standard that is understood. You can look at carbon generation 
on the Earth from that.
    But then Station, because it flies in a different orbit, it 
looks at those same locations but at different times of day. So 
that is going to give the researchers some insight into carbon 
generation throughout the day. So it gives them a different 
look at the same phenomenon that they are doing with their 
dedicated spacecraft.
    So there is a nice synergy between the dedicated spacecraft 
that takes science in a more pristine, more organized manner. 
Then there is the Space Station, because of its orbit, that 
picks up data in a little more random fashion that adds to that 
data and actually builds a better combined data set than 
individually.
    So you will see that fly. There is an aerosol experiment 
that will also fly. And then there is a RapidScat, which looks 
at winds in front of hurricanes, also. So there is a whole 
variety of uses of Station that are starting to come about.
    Senator Nelson. Well, you have just made the case, if we 
are going to Mars in 2030s, of why the Space Station ought to 
have the life beyond 2020, its legal life now in law.
    And, Mr. Cook, we will let you be the cleanup hitter. Tell 
us, if you have an extended life of the Station, what does the 
private sector think of in the development and use of the 
properties of the Station in order to benefit the private 
sector?
    Mr. Cook. Thank you, Senator.
    I think Mr. Gerstenmaier has laid out, for example, 
vaccines, new things that could be manufactured in space, new 
vaccines, new materials, things of that nature. But I want to 
flip it around the other way, and there are some technologies 
that expand the marketplace of terrestrial companies today.
    For example, one of the experiments that is being ready to 
be flown on International Space Station is an additive 
manufacturing experiment, where you can literally grow parts in 
space, you can grow items in space. And there are printing 
technologies that allow you to do that today that are 
commercially available now. And this allows for a whole new 
market for them, to be able to then take it to the Space 
Station and test it out and demonstrate it out, build 
prototypes of parts, build even some parts, in terms of---- and 
how does that work in space? Does it work as well as it does on 
the ground? It is another market.
    There are technologies that we are involved with in terms 
of taking commercial nanotechnology, being able to grow tools 
and other systems from pretty much any metal or any combination 
of metal and ceramics in space.
    And so you use the Space Station as the ability. Compared 
to Mars, getting logistics up and back to the Space Station is 
fairly straightforward. But once we go to Mars or anywhere else 
beyond low-Earth orbit, we have to be able to live off the 
land. And so using the Space Station as a platform for 
companies that have technologies that work here on Earth to 
expand there into space, I think additive manufacturing is one 
very exciting area that a longer-term space station would allow 
that to be fleshed out over time.
    Senator Nelson. And, Mr. Gerstenmaier--I keep saying I'm on 
the final question, but we have been joined by the esteemed 
senator from Connecticut.
    Explain either the Space Station or the retrograde orbit, 
of if you can park things there or have things on the Station 
as you develop the technologies to go to Mars, that you don't 
have to go back down onto the surface of Earth to resupply. 
Give us some of your thoughts there.
    Mr. Gerstenmaier. Yes, this asteroid-retrieval mission that 
we described in this deep retrograde orbit, you know, that is 
an interesting region of space.
    Some of the things we could do there potentially are Mars 
sample return we have talked about. We could use a similar 
technique to return a sample from Mars to this region. Once it 
is in this region, it is stable for an extended period of time, 
probably multiple decades. So, therefore, we could pick up Mars 
samples from this region.
    Some of the Lagrangian points are interesting gravity 
locations around the Moon. Potentially maneuvering from those 
to deep space destinations is interesting and intriguing to us. 
We need to learn more about these regions and how we can use 
essentially the gravity of planets and also the Moon to assist 
us in going to these various destinations throughout the 
universe.
    Senator Nelson. So you could bring a Mars sample back, park 
it in the retrograde orbit, and go sample it whenever you want 
to because it would be stable, we would have access to get to 
it, and you wouldn't have to work on it by taking it all the 
way back to Earth and then coming out of Earth back into orbit.
    Mr. Gerstenmaier. That is correct. Especially the asteroid, 
if it was there, you know, one visit probably doesn't give you 
as much information as you would want. You know, Steve talked 
about some of the potential minerals and things on the 
asteroid. You could actually spend several visits there to go 
look at it, characterize it, understand are asteroids really a 
viable source of material for missions into space.
    So, again, it gives you the advantage of having this object 
in a location where it will remain for an extended period of 
time and you can visit it with essentially the capabilities we 
have today.
    Senator Nelson. Since the amount of gold on the planet 
would fill two large swimming pools, Mr. Cook, if you find an 
asteroid that has gold in it, I would say our space program 
would be off and running.
    Mr. Cook. Yes, I think that is a fact. And I think, again, 
that is where me viewing space is not just a novelty and not 
just a niche place but is a marketplace that can be utilized 
for the benefit of mankind here in growing our economic sphere.
    That is the approach we need to take. That is the approach 
that was taken in almost every other exploration effort I can 
think of over history. And we ought to be considering that 
collaborative effort from day one.
    Senator Nelson. It is just like the Spanish explorers that 
found Florida. They were looking for gold, but look what they 
found.
    All right, the Senator from Connecticut, Senator 
Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    On that note, you know, I was thinking the last gold rush 
was by horse-drawn wagon, so we have come a long way, although 
our ultimate aspirations may be very similar.
    And I want to thank all of you for your excellent 
testimony, which I have been following even while I have been 
absent here, through the wonders of our modern communication 
system.
    And, also, thank you to our Chairman, Senator Nelson, for 
his leadership here on this committee.
    I have a somewhat more mundane area of inquiry, and I won't 
belabor it because I know we are near the end here. But I am 
interested in how NASA, as its mission changes, as new programs 
are developed, Constellation folded into Orion, for example, 
changes its contract so as to maintain competitive bidding.
    In other words, I am very interested in the openness and 
competitiveness of the contract awards so that when, in effect, 
the mission changes, if there is a need for new services or 
goods, is there also a move to maintain or open new rounds of 
competitive bidding.
    I don't know who would want to answer that.
    Mr. Gerstenmaier. I guess I can answer that. I would say 
that, you know, we have requirements for justification for 
other than full and open procurement, right? So there is a 
pretty--in the Federal acquisition requirements, there is a 
pretty strict set of criteria we need to meet to not go 
compete.
    So our clear preference is we would go out and compete 
unless there is demonstratable advantage that shows it is of 
overwhelming advantage to the government for us to not compete. 
And things would be, is there a substantial investment already 
made in the previous program that is directly applicable to the 
next program? Those kind of considerations. Is there not really 
another competitor in this field? That is another 
consideration.
    So we logically have to go through all those various 
constraints, understand those. And then if we show that there 
really is no advantage to competition, then we could 
potentially award through the justification for other than full 
and open procurement to one of the existing companies.
    And we did that when Constellation went away. We went 
through each one of the major components. We looked at what was 
justifiable, where was a significant advantage for us to 
continue the existing contract, or we went out and competed 
some of those contracts.
    And, you know, our experience shows we have made tremendous 
progress in SLS, and some of that is because we realized 
exactly what we said in the procurement timeframe. For example, 
on the core booster, we argued that the upper stage for the 
Constellation program was almost identical to the core stage in 
manufacturing, so we did not compete that particular contract.
    And we were able to make tremendous advantage in that 
activity, as evidenced where we are. You know, we are a little 
bit over 2 years away from when we did that initial transition, 
and we are already in the process of being ready to manufacture 
hardware next year. So that shows how fast we were able to turn 
around. And that was justifiable and evidenced by the actual 
performance.
    But our preference is clearly to do competition and to open 
it up. I am continually surprised by what the market can 
provide. I think competition is extremely healthy for us, and 
we need to look for competition wherever we can.
    Senator Blumenthal. What would be some examples or an 
example of what you decided to compete as compared to the 
instance you just mentioned where you decided not to compete 
it?
    Mr. Gerstenmaier. I am trying to think through some of 
the--I would say, like, for the cargo systems that we are using 
on Space Station, when we decided to pick a cargo resupply 
services contract, we actually put that out for a full and open 
competition. We had an extremely good competition for that 
activity. We ended up selecting the two companies that are 
starting to deliver cargo to space now, SpaceX and the Orbital 
Sciences Corporation.
    But, again, that was a pretty intense competition between 
all those providers. I believe we have lowered the cost of 
cargo to Space Station because of that competition. So that is 
probably an example of where competition was good and helped 
get us a better value for what we are trying to do.
    It was also interesting, the way we did that procurement. 
You know, typically we would build the spacecraft or contract 
out for the spacecraft itself. In this case, we didn't. All we 
did was acquire a service. So that is another thing that is 
good for us, is when we see there is a market and they could 
potentially use that rocket to lift scientific payloads and 
other things, if there is a market beyond what our need is, in 
that case just asking for the service is much better than us 
actually asking to have the rocket built and then us, the 
government, owning that rocket. So that is another thing that 
you will see a lot of us doing more on, is actually just 
looking for the service.
    And even the Exploration Flight Test that is going to occur 
next year, where we are going to look at the heat shield of the 
Orion capsule, we did that in a unique way. Typically, we would 
have procured the launch vehicle, we would have integrated the 
Orion capsule on top. But what we did there, again, is we kind 
of chose that as a service contract. We want the entry heat 
shield data, and so we didn't specify what rocket would be used 
for that. We left it up to the contractor to determine what 
rocket. They will do the integration of the Orion on top of 
that rocket, with us just kind of watching, so NASA is not 
directly involved.
    So, again, we are looking at, I would say, an innovative 
way of getting a standard service that doesn't involve 
government ownership but lets the market go do that. And that 
is another extremely effective way I think we have been able to 
lower some of our costs and get better value for the 
government.
    Senator Blumenthal. And just one last question. Are there 
areas where you haven't made that decision about whether to 
compete it or noncompete it?
    Mr. Gerstenmaier. For some of our future work sitting out 
in front of us, we go through an acquisition strategy meeting. 
And through that acquisition strategy meeting we describe these 
factors I just described to you, and we figure out what the 
best approach is to try to acquire a service or a capability we 
need and what that approach ought to be. We review that with 
the senior leadership of the agency, and we go through a formal 
process to do that.
    So there is----
    Senator Blumenthal. Great.
    Mr. Gerstenmaier.--quite a bit of work out in front of us 
that still needs to be decided.
    Senator Blumenthal. And my understanding is that, if I can 
put it in lawyer terms, not scientific terms, forgive me, that 
the burden of proof, in effect, is on the argument that there 
should be no competition. You are willing to go that route if 
there are clear advantages in cost or time or whatever to the 
United States, but otherwise you would go the compete route.
    Mr. Gerstenmaier. Yes. And that is what the Federal 
acquisition rules and regulations require us to do.
    Senator Blumenthal. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Nelson. Thank you, Senator.
    It has been a very good discussion. Thank you all for 
participating.
    The meeting is adjourned.
    [Whereupon, at 4:03 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                        William H. Gerstenmaier
    Question 1. NASA relies upon a network of private partners across 
America to provide much of the hardware necessary for manned space 
flight. Those firms need long term certainty to be able to maintain a 
skilled workforce. Are you concerned that potential cuts to the Orion 
program could jeopardize the Nation's leadership in manned spaceflight?
    Answer. The development of the Orion crew vehicle, heavy-lift Space 
Launch System (SLS), and enabling Exploration Ground Systems (EGS), as 
well as the commercial crew program, are maintaining the Nation's 
leadership in human spaceflight. Together, Orion, SLS, and EGS 
constitute the next critical step on the path to human deep space 
exploration. The FY 2014 President's Budget Request supports the 
funding necessary for these activities to maintain the Exploration 
Flight Test-1 (EFT-1), Exploration Mission-1 (EM-1), and Exploration 
Mission (EM-2) launch dates of 2014, 2017, and 2021, respectively. The 
Orion Program, including EFT-1 flight test preparation, provides 
experience and benefits to America's industrial base and supply chains. 
The industrial contractors and facilities involved with EFT-1 and the 
teams they employ, are gaining important experience, ensuring that the 
industrial base is exercised in accomplishing a spaceflight mission 
ahead of the 2017 EM-1 launch, the first launch of the Orion on the 
SLS.

    Question 2. Administrator, as you may know, Minnesota is a leader 
in the medical device industry. A surprising number of the technologies 
used in the construction of medical devices were developed by NASA in 
pursuit of manned space flight. Could you talk about the spillover 
effect you see across America that continued investment in NASA will 
yield?
    Answer. The benefits of NASA research are all around us: Knowledge 
provided by weather and navigational spacecraft; millions of passengers 
and packages traveling safely by air every day; efficiency in ground 
and air transportation; super computers; solar- and wind-generated 
energy; the cameras in many cell phones; biomedical technologies such 
as advanced imaging and infant formula; and the protective gear that 
keeps our military, firefighters, and police safe have all benefitted 
from the Nation's investments in aerospace technology.
    Over 90 percent of the infant formula sold around the world 
contains a specific nutrient discovered by NASA during plant growth 
experiments for long duration space flight.
    Over 75 percent of the cell phone cameras today operate on a device 
called the CMOS, camera-on-a-chip that was designed by a NASA engineer 
Eric Fossum working on cameras for deep space imaging.
    NASA is now creating a future in space exploration that was 
unimaginable just decades ago. Exciting advances, like solar electric 
propulsion for robotic missions, the Mars Science Laboratory, new 
Earth-observing satellites, and the James Webb Space Telescope 
underscore the importance of today's investment in space technology for 
tomorrow's discoveries and accomplishments.
    To make these incredible technologies come to life, NASA 
researchers, engineers, and contractors often work alongside our many 
partners in industry and academia. These partnerships don't just 
further our missions; they also create a large number of spinoff 
technologies with tangible benefits that are making an impact on our 
lives today.
    From life-saving shelters to innovations that protect the 
environment to components that are making commercial space transport 
possible, technology transfer represents a core part of NASA's mission 
and identity. It ensures that what we do each and every day for space 
and aerospace delivers the greatest benefit to the public.
    You can learn more about commercialized NASA technologies at: 
spinoff.nasa.gov.

                                  [all]
</pre></body></html>
